<html>
<title> - H.R. 3815, H.R. 4141 AND H.R. 4620</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  H.R. 3815, H.R. 4141 AND H.R. 4620

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              June 6, 2002

                               __________

                           Serial No. 107-123

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 -------

80-063              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 6, 2002.....................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California, Prepared statement on H.R. 4620...    55
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    10
        Prepared statement on H.R. 4141..........................    11
        Maps submitted for the record............................    94
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     6
        Prepared statement on H.R. 4620..........................     9
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho.........................................     4
        Prepared statement on H.R. 4620..........................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 3815, H.R. 4141 and H.R. 4620.     2
    Ross, Hon. Michael, a Representative in Congress from the 
      State of Arkansas..........................................    13
        Prepared statement on H.R. 3815..........................    16
        Letter from President Bill Clinton submitted for the 
          record.................................................    15

Statement of Witnesses:
    Altenbaumer, Crystal, Executive Director, William Jefferson 
      Clinton Birthplace Home, Hope, Arkansas....................    80
        Prepared statement on H.R. 3815..........................    81
    Barry, Donald J., Executive Vice-President, The Wilderness 
      Society, Washington, D.C...................................    44
        Prepared statement on H.R. 4620..........................    46
    Finfer, Larry, Assistant Director for Communications, Bureau 
      of Land Management, U.S. Department of the Interior, 
      Washington, D.C............................................    58
        Prepared statement on H.R. 4141..........................    59
    Hatfield, Nina Rose, Deputy Assistant Secretary, Budget and 
      Finance, Bureau of Land Management, U.S. Department of the 
      Interior, Washington, D.C..................................    17
        Prepared statement on H.R. 4620..........................    18
    Johnson, Randy G., Commissioner, Emery County, Castle Dale, 
      Utah.......................................................    28
        Prepared statement on H.R. 4620..........................    30
    Johnson, Rick, Executive Director, Idaho Conservation League, 
      Boise, Idaho...............................................    40
        Prepared statement on H.R. 4620..........................    42
    Kimbell, Abigail, Associate Deputy Chief, National Forest 
      System, Forest Service, U.S. Department of Agriculture, 
      Washington, D.C............................................    20
        Prepared statement on H.R. 4620..........................    20
    Salove, Chris, Commissioner, Owyhee County, Marsing, Idaho...    32
        Prepared statement on H.R. 4620..........................    33
    Smith, Daniel P., Special Assistant to the Director, National 
      Park Service, U.S. Department of the Interior, Washington, 
      D.C........................................................    56
        Prepared statement on H.R. 3815..........................    57
    Thompson, Douglas L., Chairman, Wyoming Rancher and Freemont 
      County Commissioner, Representing the National Public Lands 
      Council and the National Cattlemen's Beef Association, 
      Lander, Wyoming............................................    37
        Prepared statement on H.R. 4620..........................    38
    Van Epp, Daniel, President, The Howard Hughes Corporation, 
      Las Vegas, Nevada..........................................    61
        Prepared statement on H.R. 4141..........................    63

Additional materials supplied:
    Reilly, Thom, Clark County Manager, Clark County, Nevada, 
      Statement submitted for the record on H.R. 4141............    12


  LEGISLATIVE HEARING ON H.R. 3815, TO AUTHORIZE THE SECRETARY OF THE 
   INTERIOR TO CONDUCT A STUDY OF THE SUITABILITY AND FEASIBILITY OF 
 ESTABLISHING A PRESIDENTIAL NATIONAL HISTORIC SITE IN HOPE, ARKANSAS, 
  AND FOR OTHER PURPOSES; H.R. 4141, TO AUTHORIZE THE ACQUISITION BY 
    EXCHANGE OF LANDS FOR INCLUSION IN THE RED ROCK CANYON NATIONAL 
 CONSERVATION AREA, CLARK COUNTY, NEVADA, AND FOR OTHER PURPOSES; AND 
    H.R. 4620, TO ACCELERATE THE WILDERNESS DESIGNATION PROCESS BY 
 ESTABLISHING A TIMETABLE FOR THE COMPLETION OF WILDERNESS STUDIES ON 
                 FEDERAL LANDS, AND FOR OTHER PURPOSES.

                              ----------                              


                         Thursday, June 6, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. This hearing will come to 
order. This afternoon this Subcommittee will hear testimony on 
three bills H.R. 3815, H.R. 4141, and H.R. 4620. The first 
bill, H.R. 3815, introduced by Representative Mike Ross, would 
authorize the Secretary of the Interior to conduct a survey of 
the suitability and feasibility of establishing a Presidential 
National Historic Site in Hope, Arkansas, birthplace of the 
former President, William Jefferson Clinton.
    The next bill, H.R. 4141, introduced by our Subcommittee 
colleague, Jim Gibbons of Nevada, would authorize the 
acquisition by exchange of lands for inclusion into the Red 
Rock Canyon National Conservation Area, Clark County, Nevada. 
The bill would also authorize the transfer of certain other BLM 
lands to Clark County for a county park.
    Our last bill is H.R. 4620, introduced by our Committee 
colleague, Butch Otter, which would accelerate the wilderness 
designation process by establishing a timetable for the 
completion of wilderness studies on Federal lands.
    Before turning the time over to Ms. Christensen, I would 
ask unanimous consent that Mr. Ross be allowed to sit on the 
dais following his statement. Without objection, so ordered.
    And I now turn to the Ranking Member, Mrs. Christensen, for 
any opening statement that she may have.
    [The prepared statement of Mr. Radanovich follows:]

 Statement of The Honorable George P. Radanovich, a Representative in 
                 Congress from the State of California

    Good afternoon. The hearing will come to order. This afternoon the 
Subcommittee will hear testimony on three bills, H.R. 3815, H.R. 4141, 
and H.R. 4620.
    The first bill, H.R. 3815, introduced by Representative Mike Ross, 
would authorize the Secretary of the Interior to conduct a survey of 
the suitability and feasibility of establishing a Presidential National 
Historic Site in Hope, Arkansas, birthplace of former President William 
Jefferson Clinton.
    The next bill, H.R. 4141, introduced by our Subcommittee Colleague, 
Jim Gibbons of Nevada, would authorize the acquisition by exchange of 
lands for inclusion in the Red Rock Canyon National Conservation Area, 
Clark County, Nevada. The bill would also authorize the transfer of 
certain other BLM lands to Clark County for a county park.
    Our last bill, H.R. 4620 introduced by our Committee Colleague, 
Butch Otter, would accelerate the Wilderness designation process by 
establishing a timetable for the completion of wilderness studies on 
Federal Lands.
    Before turning the time over to Mrs. Christensen, I would ask 
unanimous consent that Mr. Ross be allowed to sit on the dais following 
his statement. Without objection [PAUSE], so ordered.
                                 ______
                                 

STATEMENT OF THE HON. DONNA CHRISTENSEN, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. Today, as you 
said, the Subcommittee is going to consider three bills, 
unrelated bills. The first one is H.R. 3815, introduced by our 
colleague, Representative Mike Ross. It is a noncontroversial 
measure to authorize a study on the suitability and feasibility 
of designating the William Jefferson Clinton birthplace home, 
located in Hope, Arkansas, as a national historic site. The 
site was the home of the future 42nd President from his birth 
in 1946 to 1950. It is closely identified with his youth and 
early development.
    I would also note that H.R. 3815 is supported by the entire 
Arkansas delegation, as it is by me as well, and also has the 
support of State and local officials. I want to congratulate my 
colleague, Mike Ross, for his work on this bill.
    Our second measure, H.R. 4141, introduced by Representative 
Gibbons, I have a little more difficulty supporting because it 
raises a number of troubling concerns. Land exchanges in Las 
Vegas have been controversial, and this proposal is no 
exception. In fact, land exchanges in Las Vegas have been such 
a problem that Congress in 1998 enacted Public Law 105-263 to 
halt land exchanges in this area and instead directed public 
lands be disposed of by auction, with the proceeds earmarked to 
the acquisition of conservation and recreational lands in 
Nevada.
    H.R. 4141 overturns that policy in this instance and 
attempts to resurrect past problems with land exchanges. The 
legislation deems the lands to be exchanged to be of equal 
value with no qualified appraisals having been done yet. It 
waives environmental laws. In fact, the bill stipulates that 
the exchange does not require further consideration or action 
pursuant to any other law or Executive order.
    The lands that are proposed to be exchanged have been 
altered several times over the years, and we have yet to 
receive an accurate mapping acreage figure for those lands. 
With public land sales in Las Vegas averaging $44,770 per acre 
for large parcels and $116,004 per acre for small parcels, 
these lands represent a significant economic resource.
    So, Mr. Chairman, given these issues and questions, I 
believe that the Subcommittee will need to look closely at the 
legislation. But I have had a chance to sit down with 
Congresswoman Berkeley who represents this district. She has 
come over to the office with some of her staff, and they have 
assured me that they are willing to work out some of the areas 
we have concern about. So I hope that we will be able to do 
that before the bill comes to the floor through the full 
Committee.
    Our final bill, H.R. 4620, is perhaps even more 
controversial. This legislation is similar to a bill sponsored 
by Chairman Hansen in the last Congress which the Republican 
leadership declined to move to the House floor. The legislation 
delegates current congressional authority over wilderness study 
areas to the executive branch by granting the Secretaries of 
the Interior and Agriculture vast new power to abolish such 
designations. Furthermore, for those areas the secretary fails 
to abolish, the bill creates an arbitrary 10-year time limit 
after which these areas would lose their designations.
    Mr. Chairman, this legislation represents a fundamental 
misunderstanding of what a wilderness is, of what wilderness 
is, and we oppose it. The process of determining whether an 
area is suitable for wilderness designation is difficult and 
time consuming, involving the assessment of complex resource 
issues.
    The date of the area's designation as a WSA, however, is 
not one of the relevant issues. The passage of days on the 
calendar in no way alters the wilderness characteristics of an 
area and should not in any way be a factor. While the process 
is a difficult one, we feel strongly that Congress should 
continue its work on wilderness and avoid the temptation to 
abdicate our responsibilities to the executive branch or rely 
on an arbitrary strategy to let the clock run out on existing 
WSAs.
    And I want take this opportunity to thank our witnesses for 
their time and effort and look forward to the testimony.
    Mr. Radanovich. Thank you very much, Donna. Are there any 
other opening statements from anybody else on the panel 
regarding those three bills?
    If not, then we will go to our first panelist who is The 
Honorable Butch Otter from the First District of Idaho, here to 
speak on H.R. 4620.
    Mr. Radanovich. Butch, welcome to the panel.

STATEMENT OF THE HON. C.L. ``BUTCH'' OTTER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Otter. Well, thank you very much, Mr. Chairman. And I 
thank you for holding this hearing today and for inviting me 
not only to attend the meeting but also to join you at the 
dais.
    I recently introduced H.R. 4620, the American's Wilderness 
Protection Act. Its goal is to resolve what in most cases has 
become a decade-long process of deliberating the fate of 
wilderness study areas, millions of acres of public land made 
untouchable for multiple use while Federal agencies and 
Congress consider whether they warrant permanent wilderness 
status.
    My bill, sponsored by 33 fellow Congressmen, including many 
on this Committee, would release all areas designated as 
wilderness study areas from such status on the earlier of 10 
years after this Act becomes law, the date that the area is 
designated as wilderness by an act of Congress, or the date the 
Secretary of Interior or the Secretary of Agriculture 
determines that the area is unsuitable for wilderness 
designation. Wilderness study areas released from the 
designation would revert back to their previous use.
    Currently, environmental obstructionists have no incentive 
to help reach decisions on wilderness designations that might 
give them less than what they want. To a large degree, they 
already have their victory. The status quo guarantees all study 
areas to be continued and to be treated as wilderness areas.
    Despite officially making allowances for historical uses, 
land managers understandably err on the side of caution and set 
rules maintaining wilderness values, restricting access to 
natural resources that might help restore jobs in rural 
communities.
    Many of our rural communities have been in limbo for too 
long. In Idaho, for example, there are 86 wilderness study 
areas totaling 3.1 million acres. Of the 67 Bureau of Land 
Management parcels, 63 have been locked up as de facto 
wilderness since 1981 or 1982, even though 40 of them have been 
found unsuitable for wilderness protection. The other 4 have 
been withdrawn from multiple use since 1976.
    Most of the 19 Forest Service wilderness study areas have 
been in place since the mid-1980's, and 2 have been held in 
that status since 1972, all the while through the 
administrations of seven Presidents and during the lifetime of 
many working people in Idaho, there has been no requirement on 
the part of the government nor impetus for the obstructionists 
to fish or cut bait.
    The Wilderness Act of 1964 and the Federal Lands Policy and 
Management Act of 1976 created the wilderness study area 
concept. The lands that became wilderness study areas were to 
be studied to determine whether they qualified for wilderness 
designation. Unfortunately, these laws failed to provide for 
the release of those lands when the studies were complete. 
Absent congressional action or consensus among the stakeholders 
on setting aside a specific parcel, that has caused wilderness 
study areas to be studied into perpetuity even after the actual 
studies were finished.
    The perpetual study of an area of wilderness for 
suitability is clearly not in the public interest. The American 
Wilderness Protection Act will bring some closure to the 
wilderness study area. If an area is truly worthy of the 
wilderness label, Congress should designate it as such. But if 
Congress can't support such a designation, then how can we 
support continuing to have the land locked away from active 
management?
    With this act's 10-year buffer and the 20 to 30 years that 
so many of these areas have already spent in limbo, we are 
talking about a generation during which people have been 
essentially barred from the use of some of the most valuable 
opportunities to recreate, to improve habitat and watersheds, 
protect against disease, insect infestation, invasive and 
noxious weeds, and other beneficial uses of our national 
resource.
    I believe this legislation is an important effort to raise 
the level of debate on wilderness, promote resolution, and hold 
everyone involved accountable for the outcome. Idaho's rural 
communities and rural communities across the West need 
certainty and self-determination for managing their natural 
resources and improving their economies.
    Thank you, Mr. Chairman, and I look forward to hearing the 
testimony and the insight of our witnesses on this legislation.
    Mr. Radanovich. Thank you very much, Mr. Otter.
    [The prepared statement of Mr. Otter follows:]

 Statement of The Honorable C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Thank you Mr. Chairman for holding this hearing today and inviting 
me to attend.
    I recently introduced H.R. 4620, the America's Wilderness 
Protection Act. Its goal is to resolve what in most cases has become a 
decades-long process of deliberating the fate of ``wilderness study 
areas''--millions of acres of public land made untouchable for multiple 
use while Federal agencies and Congress consider whether they warrant 
permanent wilderness status.
    My bill, cosponsored by 33 fellow Congressmen including many 
members of this Committee, would release all areas designated as 
wilderness study areas from such status on the earlier of 10 years 
after this Act becomes law, the date the area is designated as 
wilderness by act of Congress or the date that the Secretary of 
Interior or Agriculture determines that the area is unsuitable for 
wilderness designation. Wilderness Study Areas released from the 
designation would revert back to their previous use.
    Currently, environmental obstructionists have no incentive to help 
reach decisions on wilderness designations that might give them less 
than they want. To a large degree, they already have their victory. The 
status quo guarantees all the study areas continue to be treated as 
wilderness.
    Despite officially making allowances for historical uses, land 
managers understandably err on the side of caution and set rules 
maintaining ``wilderness values,'' restricting access to natural 
resources that might help restore jobs in rural communities.
    Many of our rural communities have been in limbo too long. In 
Idaho, for example, there are 86 wilderness study areas totaling about 
3.1 million acres. Of the 67 Bureau of Land Management parcels, 63 have 
been locked up as de facto wilderness since 1981 or 1982--even though 
40 of them have been found unsuitable for wilderness protection. The 
other four have been withdrawn from multiple use since 1976.
    Most of the 19 Forest Service wilderness study areas have been in 
place since the mid-1980s and two have held that status since 1972. All 
the while--through the administration of seven presidents and during 
the entire lifetime of many working people in Idaho--there has been no 
requirement on the government nor impetus for obstructionists to fish 
or cut bait.
    The Wilderness Act of 1964 and the Federal Land Policy and 
Management Act of 1976 created the ``Wilderness Study Area'' concept. 
Lands that became Wilderness Study Areas were to be studied to 
determine whether they qualified for wilderness designation. 
Unfortunately, these laws failed to provide for the release of those 
lands when the studies were complete. Absent congressional action or 
consensus among stakeholders on setting aside a specific parcel, that's 
caused Wilderness Study Areas to be studied in perpetuity--even after 
the actual studies were finished.
    The perpetual study of an area for wilderness suitability is 
clearly not in the public interest. The Americas Wilderness Protection 
Act will bring some closure to Wilderness Study Areas. If an area is 
truly worthy of the wilderness label, Congress should designate it as 
such. But if Congress can't support such a designation, how then can we 
support continuing to have that land locked away from active 
management?
    With this act's 10-year buffer and the 20 to 30 years that so many 
of these areas already have spent in limbo, we're talking about a 
generation during which people will have been essentially barred from 
some of our most valuable opportunities to recreate, improve habitat 
and watersheds, protect against diseases and insect infestation, and 
other beneficial uses of our natural resources. I believe this 
legislation is an important effort to raise the level of debate on 
wilderness, promote resolution and hold everyone involved accountable 
for the outcome. Idaho's rural communities, and rural communities 
across the West, need certainty and self-determination for managing 
their natural resources and improving their economies.
    Thank you again Mr. Chairman and I look forward to hearing the 
testimony and insight of our witnesses.
                                 ______
                                 
    Mr. Radanovich. The Chair will recognize the Chairman of 
the Resources Committee, Mr. Hansen; then Mr. Gibbons to speak 
on his bill, and Mr. Ross. Mr. Hansen.

    STATEMENT OF THE HON. JAMES HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Hansen. Thank you, Mr. Chairman. And thanks for hearing 
from me at this particular time. I have to leave, but I did 
want to speak to this bill because I think there are some 
really tremendous misunderstandings that are going on, as Mr. 
Otter pointed out, on the process.
    The 1964 Wilderness Act called for the Forest Service and 
for the Park Service to do a study, and in 1975 we got the 
FLPMA Act that brought in the BLM. How does this work? They are 
supposed to take that Agency and they are supposed to do a 
study. They do the study, they submit it to Congress, and 
supposedly only Congress can then make wilderness.
    What has happened? Of all of the studies that have been 
done--I have been around here for 22 years and been a part of a 
lot of these things--the Agency has not followed one of them. 
Not one time. So we find ourselves in a situation where why do 
we spend these millions and millions of dollars to have these 
agencies do it when Congress won't follow it? And basically 
what happens is we just have a situation where nothing occurs.
    Now, in my 22 years as a Member of Congress and as Chairman 
of this full Committee, I think that the one thing that bothers 
me the very most is all of the attorney retirement acts that we 
do around here. Every time something happens, we do another 
thing to take care of our legal friends somewhere, and they do 
very, very well. And we have got more attorney retirement acts 
than we have ever seen.
    Now, what the gentleman from Idaho is trying to do is stop 
the ``wilderness retirement act,'' because on that little word 
``wilderness,'' it is a romantic word. If I went around here 
and said, all of you folks give me your definition of 
wilderness, or, better yet, what do you envision when your hear 
the word, I envision being up in the hills and smelling the 
pines and the aspens and the clear water--and good people. And 
that is what I envision. And so it is a very positive, romantic 
word.
    Now, if I said, give me what you envision in severely 
restricted areas, that is a negative way of putting it. But you 
know what, folks, they are synonyms, they are exactly the same. 
When we did the 1984 bill of wilderness in the State of Utah, 
we had our phones ringing off the hook with people saying, gee, 
I can hardly wait to take my RV and get up there and get the 
job done and go in and see it. You don't go in there, because 
it says nothing mechanized shall go in that area.
    Now you tell me, what is mechanized? Is a camp stove 
mechanized? Is an oar lock mechanized? But you can't take a 
mechanized thing in there. So we in effect have said, this is a 
real reserve, pristine, primitive area.
    Now, another thing that I have noticed about this Act is 
what constitutes and qualifies as wilderness. Does just a piece 
of sage brush qualify as wilderness? I was recently working 
with Larry Young of the Southern Utah Wilderness Association, 
and the question came up; he wanted another 10,000 acres of 
pure sagebrush, pure unadulterated, all there is sage brush and 
a few beer cans in it. And he said he wanted that. I said, why? 
It doesn't qualify as wilderness. It is only sagebrush. It is 
something like the Grand Staircase-Escalante that President 
Clinton did.
    I don't know where there is anything in there that 
qualifies as a monument. And, of course, as we subpoenaed the 
papers, we found out they believed that, too. They said in 
there, we all are doing this to pacify the extreme whackos--
whoever they are--I have never tried to figure that one out.
    But, anyway, we get the idea. And let me just ask you, 
folks. Up here most of us have served in a legislative body 
other than this one, haven't we? Didn't you come out of the 
legislature? Didn't you? I came out of the legislature. I was 
Speaker of the House. Butch was Lieutenant Governor. Jim held a 
leadership position. We are all in those areas. And guess what? 
If you go look in our legislative bodies, you know what you are 
you going to find? You are going to find that most of the 
bills--now I am emphasizing most of the bills--have a sunset on 
them. And why do they do that? We don't want them to go forever 
and ever and ever. We want them to stop somewhere. We want a 
chance to take another look at it.
    Now here, if you look at the 1964 Wilderness Act, we are 
going to have the Agency take it. Now, I think Mr. Otter's bill 
kind of reads this way: The Agency finishes their investigation 
and they make the suggestion to Congress. And then Congress has 
10 years from that point when it starts tolling; is that 
correct, Mr. Otter?
    You are supposed to say yes. If you would read your script 
we could get this show on the road.
    Mr. Otter. Yes, Mr. Chairman.
    Mr. Hansen. Carrying that on, we get down to the point that 
the thing starts to toll. And they have got 10 years. Now, tell 
me, why is it so difficult--because regardless of the arguments 
you are going to hear, it is not the time that they are 
investigating, it is the time after they have made their 
proposal to Congress. So you got 10 long years to adjudicate 
this thing. Tell me--I wish I could stay, Mr. Chairman, because 
I want to hear the answers of why you can't get it done in 10 
years.
    There are very few things I have seen in 42 years as an 
elected official that you can't get done in 10 years. So why 
are people opposing this idea of Mr. Otter's? They are opposing 
it because they want it to continue forever and ever, because 
that word ``wilderness'' is an entire industry today. Look at 
the clubs that have started. They built the whole thing on that 
romantic thing, wilderness. And if you keep it going and going 
and going, you are fine.
    Now, let my give you an example of that. They finished the 
thing on BLM wilderness in the State of Utah way back in 1990. 
Jim Parker was the head of the BLM for the State of Utah. He 
took this thing that took 15 years and $10 million of your 
taxpaying money and he made a determination. He said, all 
right, the State of Utah has 22 million acres of BLM. We said, 
the very most you would ever have is 3.2, but we wouldn't give 
you all of that, we will give 1.95. That is the thing. These 
people walked around with a little button that said 3.2 for a 
long time.
    Well, we didn't do 3.2. Then it went up to 5.7. That was 
the rallying cry when a fellow by the name of Wayne Owens sat 
here and could have got it through if he wanted, but he didn't 
really want to. As we know, and Wayne has said, they had the 
Democrats in both the House the Senate and the President, and 
they didn't even introduce the thing. And I was the Ranking 
Member of this Committee in those days.
    So then Bruce Babbitt came along, if you were there when 
Bruce and I had a swearing match, and he decided he was going 
to do a reinventory. So he walked out of here. And instead of 
15 long years and $10 million, they did it in 3 weeks with kids 
from BYU, Utah State, and others. They went out and said this 
is pretty, that is pretty, the other is pretty. Guess what they 
came up with? 5.7 million acres, exactly what they had been 
carrying around on those little badges all of those years, 
right on the button. Hardly the ink was dry on that.
    Guess what? They then wanted 9.1. Now it is 9.3. I called 
one of them and said, ``What if we gave you the 9.3?`` ``I want 
12.5.'' what if we gave you 12.5 and half of the Forest Service 
and all of the parks?
    So now really what are you telling me when you are saying 
that to me, Mr. Environmentalist? You are saying to me, you are 
saying I don't want to settle this thing, because if I settle 
this thing, my industry extinguishes. You better get to 
something else.
    It is kind of like Marlboro, you know. If we get rid of 
cigarettes, you guys don't kill yourself puffing on the damned 
things; do you know what you are going to find? They are going 
to go into cheese and into something else.
    So that is what you folks in the wilderness area ought to 
do, get into something else, because you are obviously in a 
place where you can't keep this going forever.
    So all he is doing is doing what we have done in the 
legislature, what we have done here. I wish I had brought a 
list of all of the bills that we have put a sunset on, of which 
there are hundreds. That is all we are asking is get it done.
    So what is the emphasis? What is the incentive to get it 
done? It is a time limit. And that is why since our Founding 
Fathers put this show together, they put sunsets on bills, to 
get the job done.
    So if you oppose this, you are in effect buying into that 
argument we really don't want to settle this thing, because if 
we settle it, what are we going to do to make money now? I just 
say, I think this is an excellent piece of legislation. I think 
you have done a fantastic job and you even read your lines 
right.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you. That means we will put you down 
as neutral on that bill.

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                               Resources

    I've served in this body for 22 years. Throughout that time, I've 
taken part in hundreds of hearings, read countless pages of testimony, 
and have met with thousands of Americans expressing their views on 
public policy. I can say from experience that few issues create as much 
controversy, divisiveness, and frustration as wilderness does.
    This is a result of many factors. Some people consider the 
Wilderness Act of 1964 to be a sacred writ and oppose any attempt to 
improve it. Others formed special interest groups based on a philosophy 
of wilderness. These people prefer to continue to increase their 
wilderness proposals each year by hundreds of thousands of acres that 
do not fit the definition of wilderness, rather than coming to the 
table to resolve the issue. Others object to any wilderness designation 
at all. But I believe that most of the controversy and contention is a 
result of agencies or individuals departing from the original intent of 
the Wilderness Act.
    The Wilderness Act of 1964 vests the duty of designating wilderness 
areas on public lands solely with the Congress. Although Federal 
agencies may recommend areas that may be suitable for wilderness 
designation--and are even required to do so--they cannot create 
wilderness areas. Notwithstanding this fact, the agencies'' ability to 
designate Wilderness Study Areas allows them to bypass Congressional 
processes and create de facto wilderness areas. Even though Congress 
has not approved these areas as wilderness, they are being managed as 
though they were and, under current law, may continue to be managed as 
wilderness for perpetuity unless Congress directs them to do otherwise. 
Agency-made wilderness was not the intent of Congress when it passed 
the Wilderness Act in 1964, and it should not be now.
    Let me illustrate this with an example. In my home state of Utah, 
approximately 3.2 million acres of land managed by the Bureau of Land 
Management are Wilderness Study Areas. These WSAs have been around now 
for more than two decades, waiting for Congress to act on the BLM's 
recommendation of 1.9 million acres. As I stated earlier, wilderness is 
always a controversial subject. Trying to pass legislation that would 
designate those lands that deserve it and release those that do not has 
been very difficult. The result is that the State of Utah has 3.2 
million acres of WSAs as de-facto wilderness.
    But that's not where the problem stops. Special interest groups 
have lobbied the agencies to manage additional areas as wilderness. 
Without Congressional approval, the agencies have done just that, and 
in Utah, that makes between 5.7 and 9.1 million acres de-facto 
wilderness.
    This legislation would help to alleviate problems like this. It 
would require Congress to act within 10 years of the designation of the 
Wilderness Study Area. It would give an incentive to all sides to come 
to the table to negotiate and come to a resolution.
    Another result of this legislation would be the avoidance of 
perpetual studies for wilderness characteristics on public lands. I 
know that in Utah, the lands have been studied to death. This 
legislation would make allow the Federal agencies to devote more of 
their time and resources to other pressing management needs. It will 
revert the public land to the use status that it had immediately before 
becoming a WSA.
    Most importantly, it allows Congress decide what is and is not 
wilderness, based on the recommendations of the Federal agencies. This 
was the original intent of the Wilderness Act.
    This is a good piece of legislation. I appreciate the Chairman 
considering it today and look forward to hearing the panel's remarks.
                                 ______
                                 
    Mr. Radanovich. Next up to speak on his bill, H.R. 4141, is 
Subcommittee colleague, Jim Gibbons of Nevada.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman. And there 
is a line in ``When Harry Met Sally'' where they are sitting at 
a restaurant, and ``I want some of what she is having.''
    Mr. Chairman, thank you very much for considering H.R. 
4141, the Red Rock Canyon National Conservation Area Protection 
and Enhancement Act of 2002. Mr. Chairman, a bill previously 
referenced by our colleague, Mrs. Green, was considered by this 
Congress years ago, called the Southern Nevada Public Lands 
Management Act of 1998, which was enacted to provide for the 
orderly disposal of Federal lands in Clark County, Nevada, and 
to provide the acquisition of environmentally sensitive lands 
in the State.
    Now, pursuant to these goals and to those of the Recreation 
and Public Purposes Act, on April 10th of this year I 
introduced this important piece of legislation to further 
enhance the Red Rock Canyon National Conservation Area.
    H.R. 4141 will promulgate the exchange of approximately 
1,000 acres of private land, environmentally sensitive land, 
and mountainous land on the eastern border of the Red Rock 
National Conservation Area, held by the Howard Hughes 
Corporation, for approximately 1,000 acres of Bureau of Land 
Management lands. In addition, approximately 1,200 acres of BLM 
lands will be transferred to Clark County to be used as a 
public park. This exchange is fully consistent with the 
objectives of the Southern Nevada Public Land Management Act, 
P.L. 105-203, an Act to dispose of developable Federal lands 
which are currently on BLM's disposal list in exchange for 
those that are environmentally sensitive.
    The land to be conveyed to the BLM by the Howard Hughes 
Corporation has archeological, scenic and recreational values. 
The public lands to be acquired by the Hughes Corporation in 
exchange are adjacent to the Hughes Corporation holdings and 
lie within the disposal boundaries identified by the Southern 
Nevada Public Land Management Act for development.
    Mr. Chairman, as you know Congress recognized the benefits 
of convening lands to local governments without compensation 
for recreational purposes when it passed the Recreation in 
Public Purposes Act of 1954. The transfer of approximately 
1,200 acres to Clark County to be used as a park or part of a 
trial system meets with the objectives of the Recreation and 
Public Purposes Act as well as the Southern Nevada Public Land 
Management Act.
    H.R. 4141 is a bill that has the support of both Nevada's 
Senators, Democratic Senator Harry Reid, and Republican Senator 
John Ensign, as well as the local governments in the area.
    Further, the Howard Hughes Corporation deserves praise for 
its advocacy of an exchange that not only benefits their 
development interest but also those of the local public.
    The Las Vegas City Council passed a resolution on February 
20th of this year supporting preservation of Spring Mountain 
viewsheds through incorporation into the Red Rock Canyon NCA. 
Further, the Southern Nevada Group of the Sierra Club stated in 
a letter to the Howard Hughes Corporation that H.R. 4141 is not 
a bill that they want to oppose, and that the positive gains 
for the public holdings makes it a bill to celebrate.
    In addition, Mr. Chairman, I would like to enter into the 
record testimony from Clark County Manager Tom Riley endorsing 
this legislation. Along with the citizens of Clark County 
Nevada, we look forward to further consideration of this 
legislation which blends development and conservation interests 
into a wise and sensible solution for Red Rock Canyon.
    Again, Mr. Chairman, thank you for working this bill into 
your Subcommittee's very busy schedule. I hope to gain your 
support in moving this bill in the near future. I would be 
happy to address any questions the Committee or others may 
have.
    Mr. Radanovich. Thank you very much, Mr. Gibbons.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    Mr. Chairman, thank you for considering H.R. 4141--the Red Rock 
Canyon National Conservation Area Protection and Enhancement Act of 
2002.
    A previous bill considered by this Congress, the Southern Nevada 
Public Land Management Act of 1998, was enacted to provide for the 
orderly disposal of Federal lands in Clark County, Nevada and to 
provide for the acquisition of environmentally sensitive lands in the 
State.
    Pursuant to these goals, and to those of the Recreation and Public 
Purposes Act, on April 10th of this year, I introduced this important 
piece of legislation to further enhance the Red Rock Canyon National 
Conservation Area.
    H.R. 4141 will promulgate the exchange of approximately 1000 acres 
of private, environmentally sensitive, mountainous land on the eastern 
border of the Red Rocks National Conservation Area held by The Howard 
Hughes Corporation for approximately 1000 acres of Bureau of Land 
Management lands.
    In addition, approximately 1200 acres of BLM land will be 
transferred to Clark County to be used as a public park.
    The exchange is fully consistent with the objectives of the 
Southern Nevada Public Land Management Act to dispose developable 
Federal lands in exchange for those that are environmentally sensitive.
    The land to be conveyed to the BLM by The Howard Hughes Corporation 
has archaeological, scenic, and recreational values.
    The public lands to be acquired by The Howard Hughes Corporation 
are adjacent to Hughes corporate land holdings and lie within the 
disposal boundaries identified by the Southern Nevada Public Land 
Management Act for development.
    Mr. Chairman, as you know, Congress recognized the benefit of 
conveying Federal lands to local governments without compensation for 
recreation purposes when it passed the Recreation and Public Purposes 
Act of 1954.
    The transfer of approximately 1200 acres to Clark County to be used 
as a park or part of a trail system meets with the objectives of the 
Recreation and Public Purposes Act as well as the Southern Nevada 
Public Land Management Act.
    H.R. 4141 is a non-controversial bill that has the support of both 
of Nevada's Senators, and local government.
    Further, the Howard Hughes Corporation deserves praise for its 
advocacy of an exchange that not only benefits their development 
interests but also those of the local public.
    The Las Vegas City Council passed a resolution on February 20th of 
this year supporting ``preservation'' of Spring Mountain viewsheds 
through incorporation into the Red Rock Canyon NCA.
    Further, the Southern Nevada Group of the Sierra Club stated in a 
letter to The Howard Hughes Corporation that H.R. 4141 is not a bill 
they ``want to oppose'' and that the positive gain for public holdings 
makes it a ``bill to celebrate''.
    In addition, Mr. Chairman, I would like to enter into the record, 
testimony from Clark County Manager Thom Reilly, endorsing this 
legislation.
    Along with the citizens of Clark County, Nevada, we look forward to 
further consideration of this legislation which blends development and 
conservation interests into a wise and sensible solution for Red Rock 
Canyon.
    Again, Mr. Chairman, thank you for working this bill into your 
Subcommittee's very busy schedule--and I hope to gain your support in 
moving this bill in the near future.
    I will be happy to address any of the Committee's concerns.
                                 ______
                                 
    [The statement submitted for the record on H.R. 4141 from 
Thom Reilly, Clark County Manager, Clark County, Nevada, 
follows:]

  Statement of Thom Reilly, Clark County Manager, Clark County, Nevada

    Thank you for the opportunity to present testimony on H.R. 4141, a 
bill to authorize the acquisition by exchange of land for inclusion in 
the Red Rock Canyon National Conservation Area, Clark County, Nevada.
    Howard Hughes Corporation owns property and is developing the 
Summerlin Master Planned Community immediately adjacent to the Red Rock 
Canyon National Conservation Area administered by the Bureau of Land 
Management. The lands being offered by Howard Hughes Corporation, 
totaling 1071 acres, would be incorporated into the Red Rock Canyon 
National Conservation Area.
    Inclusion of the lands in the Red Rock Canyon National Conservation 
Area will preserve the viewsheds of the Spring Mountains from the Las 
Vegas Valley and natural drainage ways. It will also provide improved 
public access to the Red Rock Canyon National Conservation Area, 
resulting in significant public benefits.
    Howard Hughes Corporation has selected 998 acres within the Bureau 
of Land Management disposal boundary for the Las Vegas Valley that it 
considers suitable for exchange for the lands being offered. An 
additional 1250 acres of public lands, also within the Bureau of Land 
Management disposal boundary, would be conveyed to Clark County for 
public parks and trails to be administered by the Parks and Community 
Services Department.
    The majority of this land being conveyed to Clark County is 
currently identified as open space and part of the regional trail 
system in Clark County's Parks and Recreation Master Plan 2000-2020. 
Steep slopes, view sheds from the urban
    Las Vegas Valley, and important cultural and biological resources 
best characterize the area.
    Clark County will construct trails and trailheads within this open 
space, through Federal-local partnerships, at an estimated cost of 
$5,000,000. It is Clark County's intent to link portions of the Old 
Mormon/Spanish Trail with the regional trails system through these 
constructed trails.
    Clark County understands that the lands conveyed would be subject 
to valid existing rights as identified in Section 6 (b) of the Bill. To 
that end Clark County has met with the owners of mining claims and will 
continue to work with them as they pursue their rights.
    In summary, H.R. 4141 will preserve the viewsheds of the Spring 
Mountains from the Las Vegas Valley; it will provide improved public 
access to the Red Rock Canyon National Conservation Area; and it will 
result in significant public benefits to the residents and visitors of 
Clark County, Nevada. This is important and meaningful legislation and 
Clark County, Nevada supports its passage. To this end the Clark County 
Board of County Commissioners passed the attached Resolution in support 
of H.R. 4141.
    Thank you for this opportunity to testify.
                                 ______
                                 

  Clark County, Nevada Resolution Supporting the Exchange of Selected 
 Lands Between the United States Bureau of Land Management and Howard 
                        Hughes Properties, Inc.

WHEREAS, Howard Hughes Properties, Inc. (HUGHES) owns property along 
        the western and northern boundaries of the Summerlin Master 
        Planned Community; and
WHEREAS, Inclusion of these land in the Red Rocks Canyon National 
        Conservation Area (NCA) would preserve viewsheds of the Spring 
        Mountains from the Las Vegas Valley and provide for improved 
        public access to the NCA resulting in significant public 
        benefits; and
WHEREAS, HUGHES has selected lands within the Bureau of Land Management 
        disposal boundary for Las Vegas Valley that it considers 
        suitable for exchange for the lands being offered; and
WHEREAS, Approximately 1250 acres of these lands being selected would 
        be conveyed to Clark County for public parks and trails to be 
        administered by the Parks and Community Services Department; 
        and
WHEREAS, A number of leaders representing a variety of both state and 
        local environmental organizations have endorse this exchange.
NOW, THEREFORE, BE IT RESOLVED that the Board of Commissioners, of 
        Clark County, Nevada, hereby supports the Federal legislation 
        titled: H.R. 4141, Red Rock Canyon National Conservation Area 
        Protection and Enhancement Act of 2002.
PASSED, APPROVED, AND ADOPTED on this 4th day of June 2002.
CLARK COUNTY
BOARD OF COMMISSIONERS
    By: DARIO HERRERA, Chairman
ATTEST: SHIRLEY B. PARRAGUIRRE, County Clerk
                                 ______
                                 
    Mr. Radanovich. Mr. Ross, I appreciate your patience. 
Welcome to the Committee--Subcommittee. Welcome here to speak 
on your bill, H.R. 3815.
    Mr. Radanovich. Please begin your testimony.

    STATEMENT OF THE HON. MICHAEL ROSS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Ross. Well, thank you, Mr. Chairman, and to Ranking 
Member Christensen and to Chairman Hansen for his work with me 
on this. I am here today to testify in support of H.R. 3815, 
the Presidential Historic Site Study Act. It is a bipartisan 
bill that I offered earlier this year.
    This bill simply begins the normal process for preserving 
an important American Presidential landmark. American 
Presidents are a hallmark of our society. The way in which 
Americans forever remember leadership of the greatest Nation is 
through their policies, their words, and through the people and 
places that have shaped their lives. We place a great 
historical significance on the homes of Presidents because 
indeed they are a part of our Nation's history. They are where 
our leaders formed the beliefs and values that shaped their 
decisions and legacies.
    The meaning of these historic Presidential landmarks has 
moved anyone who has ever visited sites like Mt. Vernon, 
Monticello, Abraham Lincoln's birthplace at Spring Creek or 
Ronald Reagan's birthplace.
    The birthplace home of President William Jefferson Clinton 
holds a piece of our Presidential history. It is only fitting 
for it to be designated as a Natural Historic Site. I share the 
unique opportunity of being the representative of former 
President Clinton's birthplace home, Hope, Arkansas. In fact I 
am a 1979 graduate of Hope High School. For 17 days back in 
1991, we had a President from Hope, a Republican Governor from 
Hope, and a Member of Congress from Hope. Two of us remain in 
office today. In that small place called Hope, President 
Clinton was educated and encouraged by a loving family in a 
home at 117 South Hervey Street in Hope, Arkansas. This home 
stands as a marker of his heritage.
    President Clinton lived in two homes in Hope. However, I 
have enclosed as an official part of my testimony today a copy 
of a personal letter from former President Clinton designating 
this home as his official birthplace for purposes of historic 
significance.
    Today the home is a tourist attraction operated by a non-
profit organization, and is seeking to be designated as a 
National Historic Site. The Clinton Birthplace Foundation was 
formed several years ago, and its executive director is here 
today and will be testifying in just a little while, Crystal 
Altenbaumer.
    The Clinton Birthplace Foundation was founded several years 
ago and has successfully renovated the birthplace home as a 
museum and visitors center. To establish the William Jefferson 
Clinton birthplace home as a National Historic Site, a 
feasibility study must be completed. That is what we are 
seeking to do with this legislation is to simply authorize the 
Department of Interior to proceed with a feasibility study.
    The eventual designation as a National Historic Site will 
open the doors of economic opportunity through added tourism to 
southwest Arkansas. A number of my fellow colleagues are 
cosponsors of H.R. 3815, including every member of the Arkansas 
delegation, including our Republican member, John Boozman and 
the Chairman of the Committee, Chairman Hansen. Every member of 
the Arkansas delegation has signed onto this bill.
    My home state Governor, Mike Huckabee, a Republican who as 
I mentioned is also from Hope, is also very supportive of this 
study, and I have a letter here today from him in that regard.

    [The letter from President Clinton follows:]
    [GRAPHIC] [TIFF OMITTED] T0063.001
    
    Mr. Ross. Arkansans view this home as part of our long 
legacy of history within the State. This is not about politics, 
but instead it is about the rich history of Arkansas and our 
Nation. This site will not only educate the thousands of 
visitors each year that come to learn more about this part of 
American history, but bring more jobs, more opportunities, more 
tourism and, yes, more economic development to a part of my 
district that greatly needs it.
    Mr. Chairman, I would thank the members of the Subcommittee 
for allowing me to testify this afternoon. I hope that this 
bill will be marked up soon and offered before the House of 
Representatives. And I will be happy to answer any questions 
that you or members of the Committee might have at this time.
    Mr. Radanovich. Thank you so much Mr. Ross.
    [The prepared statement of Mr. Ross follows:]

 Statement of The Honorable Michael Ross, a Representative in Congress 
                       from the State of Arkansas

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify in support of H.R. 3815, the Presidential 
Historic Site Study Act, a bipartisan bill that I offered earlier this 
year.
    This bill simply begins the normal process for preserving an 
important American presidential landmark. American Presidents are a 
hallmark of our society. The way in which Americans forever remember 
leadership of the ``greatest nation'' is through their policies, their 
words, and through the people and places that have shaped their lives. 
We place a great historical significance on the homes of President's 
because, indeed, they are a part of our nation's history. They are 
where our leaders formed the beliefs and values that shaped their 
decisions and legacies. The meaning of these historic presidential 
landmarks has moved anyone who has visited Mt. Vernon, Monticello, 
Abraham Lincoln's birthplace at Spring Creek, or Ronald Reagan's 
birthplace. The birthplace home of President William Jefferson Clinton 
holds a piece of our presidential history, and it is only fitting for 
it to be designated as a National Historic Site.
    I share the unique opportunity of being the Representative of 
former President Clinton's birthplace home, Hope, Arkansas. In fact, I 
am a 1979 graduate of Hope High School. In that small town called Hope, 
President Clinton was educated and encouraged by a loving family in a 
home at 117 South Hervey Street, Hope, AR. This home stands as a marker 
of his hermitage. President Clinton lived in several homes in Hope; 
however, I have enclosed as part of my official testimony a copy of 
personal correspondence from President Clinton designating this home as 
his ``official birthplace for purposes of historic significance.''
    Today, the home is a tourist attraction to the local area and is 
seeking to be placed on the National Register of Historic Places as a 
National Landmark. The Clinton Birthplace Foundation was formed several 
years ago. The foundation has successfully renovated the birthplace 
home as a museum and visitors center. To establish the ``William 
Jefferson Clinton Birthplace Home'' as a National Historic Site, a 
feasibility study must be completed. That is what we are seeking to do 
with this legislation.
    The eventual designation as a National Historic Site will open the 
doors of economic opportunity through added tourism to Southwest 
Arkansas. Thirty-one of my fellow colleagues are currently cosponsors 
on H.R. 3815, including every member of the Arkansas delegation. My 
home state's Governor, Mike Huckabee-a Republican, is supportive of 
this study. Arkansans view this home as part of our long legacy of 
history within the state. This is not about politics, but instead about 
the rich history of Arkansas and our Nation. This site will, not only, 
educate the thousands of visitors each year that come to learn about 
this part of American history, but perhaps most importantly, bring more 
jobs, more opportunities, and more economic development to a part of my 
district that greatly needs it.
    Mr. Chairman, I would like to thank the Members of the Subcommittee 
for allowing me to testify this afternoon. I hope that this bill will 
be marked up soon and offered before the House of Representatives. I 
will be happy to answer any questions the members of the Committee 
might have.
                                 ______
                                 
    Mr. Radanovich. Are there any questions of the gentleman 
from Arkansas? Mike, you are welcome to join us here on the 
dais for the rest of the hearing if you would like.
    Mr. Ross. Actually, we have--I appreciate that. I have got 
a markup going on in Financial Services. I am going to run back 
to that, if you will forgive me. Unless there are any 
questions.
    Mr. Radanovich. There are no questions. Thank you very 
much.
    Mr. Ross. Thank you for this hearing, Mr. Chairman.
    Mr. Radanovich. With that we will move on to our next 
panel, Panel No. 2, which consists of Ms. Nina Hatfield, Deputy 
Director of Bureau of Land Management, the Department of the 
Interior in Washington; and also Abigail Kimbell, Associate 
Deputy Chief of the U.S. Forest Service.
    If you would begin your testimony, if we can keep it under 
5 minutes, that would be terrific. Thank you.

  STATEMENT OF NINA HATFIELD, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Hatfield. Thank you very much, Mr. Chairman. I 
appreciate this opportunity to testify on behalf of the 
Department of the Interior regarding H.R. 4620, America's 
Wilderness Protection Act, H.R. 4620, which attempts to deal 
with the backlog of wilderness recommendations for both 
designation and release that have built up in Congress now for 
several years.
    The Administration believes that the wilderness debate must 
move forward and that Congress should do this by addressing 
these wilderness study areas. We share the desire of the 
sponsors of H.R. 4620 to move forward and, where appropriate, 
designate lands as wilderness or return lands not suitable for 
wilderness to multiple use management and other appropriate 
uses. We would certainly like to work with Congress on 
legislation to accomplish this.
    This particular legislation potentially impacts three 
Interior bureaus: The Bureau of Land Management, the National 
Park Service, and Fish and Wildlife Service. For the Bureau of 
Land Management, Section 603 of the Federal Land Policy and 
Management Act of 1976, commonly referred to as FLPMA, charged 
the BLM with identification and management of lands for the 
National Wilderness Preservation System established by the 1964 
Wilderness Act.
    Between 1977 and 1980 the BLM identified over 700 
wilderness study areas, covering approximately 26.5 million 
acres. These areas were placed under BLM's interim management 
policy to be managed to protect their wilderness values, 
pending a final action by Congress. Congress has designated 148 
BLM-managed wilderness areas, containing about 6.2 million 
acres.
    For the Fish and Wildlife Service and the National Park 
Service, the Wilderness Act of 1964 instructed the Secretary to 
review all roadless areas greater than 5,000 acres and all 
roadless islands within the refuge system, and to make 
recommendations to the President regarding the suitability of 
these lands for classification as wilderness.
    Between 1968 and 1990, Congress passed 15 laws designating 
about 20 percent of the lands and waters in the refuge system 
as wilderness, more than 20 million acres on 65 national 
wildlife refuges. Congress has yet to act on wilderness 
proposals for about 2 million acres and 21 refuges outside of 
Alaska that were submitted between 1969 and 1974.
    In the National Park Service, a total of 19 parks currently 
have areas recommended by the President for wilderness 
designation. Most of these areas have been awaiting 
congressional action for more than 20 years.
    H.R. 4620 seeks to move forward the wilderness debate. The 
bill places a 10-year limit for action on existing WSAs, after 
which any WSA lands not designated as wilderness would be 
released from withdrawal. Following release, pursuant to this 
legislation, management of the lands would revert to the plans 
in place prior to the designation. The Administration is 
currently formulating a position on this provision, and we look 
forward to working with the Committee on this issue.
    We support the goal of moving forward the wilderness debate 
on wilderness designation, and want to work with the Congress 
on legislation to accomplish these goals. Certainly, 
determining a final management status of these lands would 
achieve our objectives with respect to wilderness and 
nonwilderness use.
    The Administration agrees that the time has come to make 
decisions about wilderness designation. The holding pattern 
that we have been in for the last decade continues to frustrate 
people on all sides of the issue. And we are hopeful that the 
consideration of this bill will spur the debate. And we look 
forward to working with you on it.
    I thank you for the opportunity to appear today and look 
forward to answering any questions that you may have.
    Mr. Radanovich. Thank you very much, Ms. Hatfield.
    [The prepared statement of Ms. Hatfield follows:]

Statement of Nina Rose Hatfield, Deputy Assistant Secretary, Budget and 
  Finance, Bureau of Land Management, U.S. Department of the Interior

    Thank you for the opportunity to testify on behalf of the 
Department of the Interior regarding H.R. 4620, ``America's Wilderness 
Protection Act.'' H.R. 4620 is an attempt to deal with the backlog of 
wilderness recommendations both for designation and release that have 
built up in the Congress over the past 30 years. As my statement will 
point out, the Department currently has pending before Congress 
recommendations on many millions of acres of land managed by the Bureau 
of Land Management (BLM), the U.S. Fish and Wildlife Service (FWS), and 
the National Park Service (NPS). The Administration believes that the 
wilderness debate must move forward and Congress should do this by 
addressing these Wilderness Study Areas (WSAs). Except for the large 
amount of acreage addressed by the California Desert Protection Act of 
1993 and approximately1.06 million acres designated in the 106th 
Congress, there has been little activity in the Congress over the past 
10 years in this area. We share the desire of the sponsors of H.R. 4620 
to move forward and, where appropriate, designate lands as wilderness 
or return lands not suitable for wilderness to multiple use management 
and other appropriate uses, and would like to work with Congress on 
legislation to accomplish this.
Background--Bureau of Land Management
    Section 603 of the Federal Land Policy and Management Act of 1976 
(P.L. 94-579), commonly referred to as FLPMA, charged the BLM with 
identification and management of lands for a National Wilderness 
Preservation System established by the 1964 Wilderness Act (P.L. 88-
577).
    Between 1977 and 1980 the BLM identified over 700 Wilderness Study 
Areas (WSAs) covering approximately 26.5 million acres. These areas 
were placed under BLM's Interim Management Policy (IMP) to be managed 
to protect their wilderness values pending final action by Congress. 
FLPMA directs the BLM to protect the wilderness character of these 
lands until a decision on their final disposition is made by Congress. 
The IMP provides detailed guidance to managers on this protection 
mandate.
    Between 1980 and 1991 the BLM studied its WSAs (with the exception 
of Alaska) through the land use planning process. In 1991, and as 
mandated by FLPMA, Secretary of the Interior Lujan transmitted to the 
President his suitability recommendations for these WSAs. The 
recommendations found 9.7 million acres of BLM-managed public lands in 
330 units as suitable for inclusion in the National Wilderness 
Preservation System. (Subsequent Congressional actions have reduced the 
remaining acreage recommended as suitable to approximately 6.5 million 
acres.) Between May of 1992 and January of 1993, President George H.W. 
Bush endorsed the recommendations of Secretary Lujan and submitted them 
to Congress. Apart from continuing to manage all the WSA lands for 
their wilderness character, this completed the Executive Branch's 
obligations under section 603 of FLPMA.
    The BLM's first significant wilderness area--``Bear Trap Canyon 
Wilderness'' in southwestern Montana--was designated by Congress in 
1983. Since then, Congress (through nearly two dozen separate Acts) has 
designated an additional 148 BLM-managed wilderness areas containing 
about 6.25 million acres. In some cases, the Congress has generally 
followed BLM's suitability recommendations. Far more frequently, 
Members of Congress and Congressional delegations have conducted their 
own investigation into proposed wilderness reaching their own separate 
conclusions. These have included releasing areas recommended suitable, 
designating areas originally recommended nonsuitable, designating areas 
which were not WSAs, as well as creating WSAs legislatively.
    There has been no single template for wilderness action by 
Congress. In Arizona, for example, two laws, the Arizona Wilderness Act 
of 1984 (P.L. 98-406) and the Arizona Desert Wilderness Act of 1990 
(P.L. 101-628) resolved almost all of Arizona's BLM wilderness issues 
designating nearly 1.4 million acres of wilderness in 47 separate 
areas. Likewise, the California Desert Protection Area of 1994 (P.L. 
104-433) designated 69 new BLM wilderness areas covering over 3.5 
million acres, seven legislated WSAs, largely resolving wilderness 
issues in the California Desert. In the last Congress, five different 
bills designated wilderness in California, Colorado, Utah, Oregon, and 
Nevada ranging from a single area of 17,700 acres in Colorado to 10 
newly designated wilderness areas in Nevada containing over 750,000 
acres.
    At the present time 20 bills are pending in the House of 
Representatives or the Senate to designate wilderness, and we are aware 
of ongoing discussions by individual Members and entire delegations 
concerning additional wilderness proposals.
U.S. Fish and Wildlife Service and National Park Service
    The Wilderness Act of 1964 instructed the Secretary of the Interior 
to review all roadless lands greater than 5,000 acres and all roadless 
islands within the Refuge System and to make recommendations to the 
President regarding the suitability of these lands for classification 
as wilderness. The Alaska National Interest Lands Conservation Act of 
1980 (ANILCA) directed the Secretary to prepare a comprehensive 
conservation plan (CCP) for each refuge in Alaska. ANILCA mandated that 
the CCPs include a wilderness study of all refuge lands and waters that 
were not designated wilderness by the Act.
    Between 1968 and 1990, Congress passed 15 laws designating about 
20% of the lands and waters in the Refuge System as wilderness--more 
than 20 million acres on 65 national wildlife refuges. Congress has yet 
to act on wilderness proposals for 2 million acres in 21 refuges 
outside Alaska submitted between 1969 and 1974. These ``proposed 
wilderness'' areas are managed to protect their wilderness values 
pending final action by Congress.
    In the National Park Service (NPS), a total of 19 parks, including 
some of the best known in the National Park System, currently have 
areas recommended by the President for wilderness designation. Most of 
these areas have been awaiting Congressional action for more than 
twenty years.
H.R. 4620
    H.R. 4620 seeks to move forward the wilderness debate. The findings 
of the bill state that certain Federal lands as wilderness are 
beneficial to the American people and wilderness study areas were not 
intended as a substitute for wilderness designation by Congress. 
Finally, the findings point out that lands that merit wilderness 
designation should be granted the full protection that such as status 
would afford and those lands that do not merit such a designation 
should be released so that they could be managed for the public good.
    The bill places a 10-year time limit for action on existing WSAs, 
after which any WSA lands not designated wilderness by Congress would 
be released from withdrawal. Following release pursuant to the 
legislation, management of the lands would revert to the plans in place 
prior to their designation as WSAs. The Administration is currently 
formulating a position on this provision and we look forward to working 
with the Committee on this issue.
    As stated above, we support the goal of moving forward the 
wilderness debate and wilderness designation and want to work with 
Congress on legislation that accomplishes these goals. As of today, 
there are 16.3 million acres of BLM WSAs, 26.1 million acres of NPS 
WSAs, and 5.3 million acres of FWS WSAs. Determining a final management 
status of these lands would achieve our objectives with respect to 
wilderness and non-wilderness use.
Conclusion
    The Administration agrees that the time has come to make decisions 
about wilderness designations. The holding pattern of the last decade 
continues to frustrate people on all sides of the issue. We are hopeful 
that Congress's consideration of H.R. 4620 will spur this debate. Thank 
you for the opportunity to appear before you today. I am happy to 
answer any questions the Committee may have.
                                 ______
                                 
    Mr. Radanovich. Next is Abigail Kimbell, again the 
Associate Deputy Chief of the U.S. Forest Service. Abigail, 
welcome to the Committee and please begin your testimony.

STATEMENT OF ABIGAIL KIMBELL, ASSOCIATE DEPUTY CHIEF, NATIONAL 
               FOREST SYSTEM, USDA FOREST SERVICE

    Ms. Kimbell. Thank you very much, Mr. Chairman. Mr. 
Chairman, members of the Subcommittee, thank you for the 
opportunity to appear before you today. My comments today 
represent the views of the Department of Agriculture on H.R. 
4620, America'S Wilderness Protection Act. My comments will be 
fairly short.
    Section 3(c) of the bill states: Any area released from 
wilderness study area status shall revert to the land use 
status that such area had immediately before the area was given 
wilderness study area status and shall not be studied again 
regarding wilderness designation. The Administration is 
currently formulating a position on this provision. We look 
forward to working with the Committee on the issue.
    The study of the Forest Service primitive areas has long 
since been completed. Wilderness suitability of National Forest 
System lands has been examined in RARE I, RARE II, as well as 
all of our land and resource management plans.
    We would certainly like to move the debate forward. This 
concludes my testimony. I will be happy to answer any 
questions.
    Mr. Radanovich. Thank you very much.
    [The prepared statement of Ms. Kimbell follows:]

 Statement of Abigail Kimbell, Associate Deputy Chief, National Forest 
         System, Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Abigail Kimbell, Associate 
Deputy Chief, National Forest System, USDA Forest Service. My comments 
today represent the views of the Department on H.R. 4620, ``America's 
Wilderness Protection Act''.
    For reasons I will detail in my testimony, the Department has some 
concerns with this bill, but the Department would like to work with the 
Committee to resolve these concerns as the bill is considered.
H.R. 4620, ``America's Wilderness Protection Act
    H.R. 4620, America's Wilderness Protection Act, would accelerate 
the wilderness designation process by establishing a timetable for the 
completion of wilderness studies on Federal lands, and for other 
purposes. The bill states, ``the establishment of a timetable for the 
completion of wilderness studies would facilitate the wilderness 
designation process by supplying a time frame within which Congress 
must act.
    Section 3(a) of the bill, directs all areas with Wilderness Study 
Area status on the date of the enactment of this Act would be released 
from Wilderness Study Area status on the earlier of the following:
    (1) LThe date that the Secretary of the Interior or the Secretary 
of Agriculture, as appropriate, determines that the area is not 
suitable for wilderness designation.
    (2) L10 years after the date of the enactment of this Act.
    (3) LThe date that the area is designated as wilderness by an Act 
of Congress.
    Section 3(b) of H.R. 4620, directs that any area that is given 
Wilderness Study Area status after the date of enactment of this Act 
shall be released from Wilderness Study Area status on the earlier of 
the following:
    (1) LThe date that the Secretary of the Interior or the Secretary 
of Agriculture, as appropriate, determines that the area is not 
suitable for wilderness designation.
    (2) L10 years after the date that the area was given Wilderness 
Study Area status.
    (3) LThe date that the area is designated as wilderness by an Act 
of Congress.
    Section 3(c) of the bill states any area released from Wilderness 
Study Area status shall revert to the land use status such area had 
immediately before the area was given Wilderness Study Area status and 
shall not be studied again regarding wilderness designation. The 
Administration is currently formulating a position on this provision 
and we look forward to working with the Committee on this issue.
    The Wilderness Act of 1964 provided for the study of certain 
National Forest System lands for wilderness suitability. The study of 
Forest Service Primitive Areas has long since been completed. 
Wilderness suitability of National Forest System lands has been 
examined in RARE I, RARE II, as well as many Land and Resource 
Management Plans. Although the President and the Secretary may 
recommend that certain areas be designated wilderness, Congress 
reserves the authority to designate areas as wilderness. Congress may 
direct the study of specific areas through specific wilderness 
legislation.
    In conclusion, the Department is committed to working cooperatively 
with the Committee to identify and secure for the American public, the 
benefits of an enduring resource of wilderness that can be used and 
enjoyed by current and future generations.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Radanovich. Any questions from any of the members?
    Mrs. Christensen. Well, if I might; Ms. Hatfield, is the 
Bureau of Land Management, then, supporting or not supporting 
the bill?
    Ms. Hatfield. Well, the Administration hasn't yet taken a 
position on the bill. They are still looking at the issues 
related to the bill and would like to work with the Committee 
on the bill.
    Mrs. Christensen. And just one other question. I am not 
sure how many wilderness studies are out there, but are most--
how long does it take for most of the studies to be done?
    Ms. Hatfield. Well, it would vary with the size of the unit 
that you are looking at and the complexity of the issues 
related to it. But I think that, certainly in most cases, many 
of the wilderness areas have already been looked at. And as we 
are looking through, trying to revise our plans--and we are 
doing that in most of the areas of the country--then there 
could be additional areas.
    A plan for a land area usually will take about 3 years to 
do, and wilderness would be considered as a part of that 
planning process.
    Mrs. Christensen. So you are saying that the studies are 
completed within 10 years normally?
    Ms. Hatfield. Yes. Most of the wilderness study areas in 
the Bureau of Land Management that have already been identified 
are now before Congress. But there is a provision in the Act 
that does allow us to go through and look at our land uses 
throughout the Bureau, and in the process of doing that, you 
might consider if there are wilderness values on a particular 
area of land.
    Mrs. Christensen. So it sounds as if most of them can be 
done within 10 years and are done within 10 years. So the 
problem is really here, acting on whether to designate the 
wilderness or not.
    Ms. Hatfield. Absolutely. I think that the Bureau and the 
other agencies have already put before Congress areas that they 
believe have wilderness characteristics and should be 
considered. And so the real issue is here, is Congress looking 
at those wilderness study areas and making a decision if in 
fact they intend to designate them as wilderness areas.
    Mrs. Christensen. Thank you.
    Mr. Radanovich. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. To either one of the 
testifiers--so convert back. If something has gone through a 
plan and been looked at for wilderness value, and maybe the 
decision in the plan is that this is not going to be used as 
wilderness, would there be instances where after we have spent 
the time and expense to look at the land, where maybe your 
Agency should be looking at not converting back to the original 
plan, but looking for a plan that would protect either a 
significant ecosystem or populations of plant or wildlife that 
might be existing on the land without going to the wilderness 
designation? So do we have a choice of one or the other only?
    Ms. Kimbell. Under the National Forest Management Act, we 
analyze forestlands, forest by forest. And the National Forest 
Management Act was passed in 1976. We have completed the first 
round of planning. We are involved in the second round. Each 
time we go through that planning process, we evaluate all of 
the lands on the national forest, other than those that have 
already been congressionally designated as a special area, and 
we evaluate them for different uses, including potential 
wilderness. They are then assigned a land use designation. So 
there is a great range of land use designations. We might 
recommend some area for wilderness. We might decide to 
designate it as primitive, semiprimitive nonmotorized, 
semiprimitive motorized. There are a whole host of land use 
designations that would be specific to that piece of land.
    Ms. McCollum. So how are you answering my question? I 
thought my question was kind of simple. You said if it wasn't 
designated wilderness, it gets converted back. And I said, in 
doing the wilderness study, if you find a different use for the 
land or a different designation, can you do that? Yes or no?
    Ms. Kimbell. Yes.
    Ms. McCollum. So then it does not have to convert back to 
the original status that it was prior to doing the wilderness 
investigation?
    Ms. Kimbell. Well, currently under the National Forest 
Management Act, we evaluate it for a whole host of different 
land use designations. It doesn't necessarily revert to any 
specific designation.
    Ms. McCollum. OK. Thank you, Mr. Chairman. Because I 
thought I heard in the testimony, repeatedly, it converts back 
to what it was prior to being designated wilderness--prior to 
the study. And thank you for the clarification that after the 
study is done that you look and evaluate it.
    Unless staff here wants to clarify what I heard?
    Mrs. Christensen. Would you yield? I think that the bill 
under consideration does that, reverts it back to prior use.
    Ms. Hatfield. You are really talking about two different 
types of areas. Currently, at least for Interior land, you have 
50 million acres of designated wilderness study areas that are 
before Congress for consideration. And in addition to that, the 
agencies do look at, routinely, their land base to make plans 
and constantly update those based on public impact, public 
input, and changes of situations that happen.
    And in that consideration, I think, as Ms. Kimbell has 
related, that we would look at wilderness values also.
    Ms. McCollum. Mr. Chairman, seeing as how we are on the 
bill, your question was for current policy. With the bill in 
front of us, do you feel that you have any input after you have 
looked at a study, even if wilderness is not the 
recommendation, to have any voice, any concerns, any input as 
to how the land should be designated?
    Ms. Kimbell. As I stated in my testimony, the Department of 
Agriculture would like to work with the Subcommittee on the 
language in Section 3(c).
    Mr. Radanovich. Thank you. Mr. Otter, did you have any 
questions?
    Mr. Otter. Yes, thank you, Mr. Chairman.
    Ms. Hatfield, how does the Department of Interior and 
Forest Service--I guess I would ask Ms. Kimbell as well--
currently manage wilderness study areas?
    Ms. Hatfield. Well, they are currently managed so that the 
values that made them wilderness study areas in the first place 
will be maintained in the future. And so they are managed to 
maintain the status quo, if you will.
    Mr. Otter. Does that include the eradication of noxious and 
invasive weeds?
    Ms. Hatfield. Well, certainly we can take actions like 
prescribed burns and some other management actions like that 
that are designed to maintain the health of the area. But for 
the most part, it is maintained with the idea of maintaining 
the wilderness characteristics.
    Mr. Otter. Could you help me out with some activity 
definitions here? What kind of activity, human activity, is 
allowed in wilderness areas?
    Ms. Hatfield. I think that, generally speaking, the 
activity is designed to be more nonmotorized type of activity, 
dispersed camping, individual camping; looking at these as I 
think the original legislation looked at in terms of enjoying 
the solitude and natural areas, areas that haven't primarily 
been used a great deal in terms of human interaction with it.
    Mr. Otter. During your testimony you referred to the over 
700--I think it was--study areas on BLM ground, representing 
26.5 million acres. During that, you said you had submitted to 
Congress, I think it was well over 100-some that should have 
been designated either for multiple use or for wilderness; is 
that right?
    Ms. Hatfield. Well, currently there are about 16.3 million 
acres in BLM that are before Congress as wilderness study 
areas, and they are being managed by the Bureau as wilderness 
study areas. In other words, maintaining the status quo, if you 
will.
    Mr. Otter. You have made recommendations, then, to Congress 
that these should be wilderness areas?
    Ms. Hatfield. That is correct. Now, there have also been 
some other subsequent recommendations by the Bureau determining 
that some of those areas may not be suitable for wilderness 
designation.
    Mr. Otter. That would be the 40 in Idaho, for instance, 
that have been referred back and said this does not have--these 
do not have wilderness qualities.
    Ms. Hatfield. Yes, but we are still maintaining those as 
wilderness study areas.
    Mr. Otter. Now, who do you submit this list to, this advice 
to? Is this submitted directly to Congress or is this submitted 
to the President?
    Ms. Hatfield. The President submitted it to Congress.
    Mr. Otter. And how many of those have been submitted to 
Congress by the President?
    Ms. Hatfield. I think that--I will ask to submit the 
total--the list specifically to the record.
    [Mr. Hatfield's response, which was submitted for the 
record, follows:]
    Between 1991 and 1993, the President submitted nine reports 
to Congress:
            July 1991--California
            May 1992--New Mexico
            June 1992--Utah
            July 1992--Oregon
            July 1992--Wyoming
            September 1992--Idaho
            September 1992--Nevada
            January 1993--Colorado
            January 1993--Montana
    Ms. Hatfield. But about 70 million acres of Interior 
lands--BLM, Park Service, Forest, Fish and Wildlife--have been 
designated as wilderness, and about 50 million acres are still 
available to be studied.
    Mr. Otter. Well, I have been advised by staff that although 
the BLM may have made the recommendation, that list has not 
been submitted by the President to Congress.
    Ms. Hatfield. That is right.
    Mr. Otter. What is the difference in activity between 
wilderness and monument status?
    Ms. Hatfield. Well, the monuments are managed based upon 
the document that established the particular monument. And each 
of those declarations, whether they be legislative or 
Presidential--the monument document, for example, establishes 
whether or not there is going to be further mineral activity or 
further grazing, as an example, what kind of recreational 
activity. The wilderness areas are really designated in the 
context of the 1964 Wilderness Act.
    Mr. Otter. I would invite Ms. Kimbell to also respond to 
this if she would. Would you be able to tell me how long the 
Staircase-Escalante Monument was studied prior to its getting 
its designation?
    Ms. Hatfield. Well, I will certainly try to supply that to 
the record.
    Mr. Otter. Do you have a guess as to how long it was 
studied before--
    Ms. Hatfield. I don't personally. I have been more involved 
with it since its designation.
    Mr. Otter. Thank you, Mr. Chairman. Did you want to 
respond?
    Ms. Kimbell. Nor do I have an exact number.
    Mr. Radanovich. Ms. Hatfield, can you tell me--you had 
mentioned the 40 study areas that are in Idaho right now that 
have been looked at and deemed not having the characteristics 
for a wilderness area but they are still being managed as such. 
Can you explain why that is the case, and why it hasn't been 
reverted back to regular management of BLM?
    Ms. Hatfield. I would like to check on the numbers in terms 
of Idaho specifically and check on that. But, generally 
speaking, FLPMA, which included a duty for the Bureau of Land 
Management to inventory and decided what areas might have 
wilderness characteristics, also provided that the BLM would 
maintain those areas as wilderness study areas once the 
President had sent it forward to Congress. That is the 
management scheme under which we are now working.
    And so it is based on the--our legislation, FLPMA.
    Mr. Radanovich. Is there any intention of reverting it back 
to anything other than the management of wilderness in those 
areas?
    Ms. Hatfield. Not until Congress makes a decision with 
regard to those specific acres, because our statute would 
require they be managed as wilderness.
    Mr. Radanovich. OK. Thank you.
    If you will bear with me, I have got a question to read 
that is little bit long. If you would bear with me. Section 603 
of the Federal Lands Policy Management Act mandates that the 
Secretary review lands having characteristics of wilderness and 
then making a recommendation to the President, which is what we 
have talked about. This section also states that this review 
shall comply with Section 603(d) of the Wilderness Act which 
deals with the recommendation of suitable lands for wilderness.
    Keep in mind that these provisions of law refer to the 
recommended areas of wilderness designation. So, with that in 
mind, do you agree that when Section 603(c) refers to such 
areas during the period of review, that this means only those 
areas which have been recommended as suitable for wilderness 
designation?
    Ms. Hatfield. Well, I think that the thrust of your 
question is that FLPMA Section 603 does provide a mechanism by 
which the Bureau has inventoried lands through the--I think the 
first 15 years after the passage of FLPMA. BLM did make 
recommendations which the President has submitted to Congress. 
Those are the ones that are being managed as wilderness study 
areas.
    Now, in addition to that, in its normal planning process, 
the Bureau has designated some other wilderness study areas. 
Those would be ones that could be changed through the land use 
planning process. So there are two different types. But about 
98 percent of them are the FLPMA 603 areas. About 98 percent of 
them are the ones--under FLPMA 603--that Congress has the 
authority to decide whether or not in fact they should be 
wilderness and, thus, the bulk of the area that we would like 
to move forward working with Congress to work out a solution.
    Mr. Radanovich. Right. Is it the BLM's policy to consider 
land studied and not recommended for wilderness designation to 
remain wilderness study area status as if they were part of the 
recommendation?
    Ms. Hatfield. Currently?
    Mr. Radanovich. Yes.
    Ms. Hatfield. That is currently how we are managing.
    Mr. Radanovich. You state in your testimony that proposed 
wilderness areas are managed to protect their wilderness values 
pending congressional action. Where in the Wilderness Act does 
it mention proposed wilderness and that these areas need to be 
managed for their wilderness values?
    Ms. Hatfield. Again, with regard to BLM, you are operating 
basically under FLPMA. The FLPMA provision is 603. Under that 
provision we have looked at them. We have submitted them to the 
President. Those are subject to congressional action.
    Mr. Radanovich. But is that language that authorizes you to 
do that in the Wilderness Act? You mentioned under BLM.
    Ms. Hatfield. Well, FLPMA refers to the Wilderness Act. But 
the actual legislative import for BLM's action was through the 
Federal Land Management and Policy Act, FLPMA. But it does 
reference the Wilderness Act in terms of a standard.
    Mr. Radanovich. OK. Ms. McCollum.
    Ms. McCollum. Mr. Chairman, so the Agency studies, the 
President recommends, and then Congress needs to act. In 
Section 206 of the Federal Land Policy and Management Act, (c): 
During the period of review, such areas, until Congress has 
determined otherwise, the Secretary shall continue to manage 
such lands according to his authority or her authority under 
the Act under the applicable laws in a manner as not to impair 
the suitability of such areas for preservation as wilderness 
subject to, however, the continuation of existing mining and 
grazing uses and mineral rights in the manner--
    Then it says, that in managing the public lands, the 
Secretary shall by regulation or otherwise take any action 
required to prevent unnecessary or undue degradation of the 
lands and their resources or whatever--basically goes on and 
says until Congress acts.
    So you are following the law. You have done your inventory, 
the President's list--and there seems to be some controversy 
between which staff you talk to whether a list has been handed 
in.
    Ms. Hatfield. No. We have submitted a list.
    Ms. McCollum. Then it is up to us. It is up to this 
Subcommittee and this full Committee to start acting on the 
pending legislation. So, Mr. Chairman, they are just doing what 
they are supposed to be.
    Mr. Radanovich. All right. Thank you very much.
    Ms. Hatfield, appreciate your testimony as well as you, Ms. 
Kimbell.
    Excuse me, not quite done yet. Mr. Otter has another 
question.
    Mr. Otter. I would like to follow up on something that Ms. 
McCollum was talking about earlier before the second round 
began, and that was relative to the problem that everybody has 
with Section 3(c), and that is reverting it back to wilderness.
    And I would like to accommodate that kind of thought in 
this bill, that if it wasn't going to be wilderness, and if it 
was going to be designated a use other than the use prior to it 
being designated as a study area, do you think that would take 
more than 10 years to decide whether or not that was going to 
be a use other than (A) wilderness or (B) its prior use?
    Ms. Hatfield. I think that is one of the questions that we 
would like to talk with the Committee more about. As we read 
Section 3(a), when a wilderness study area reverts back it will 
revert back under the plan for the land that was in place at 
the time that the wilderness study area would have been 
designated.
    For all of the agencies involved here, I think that for the 
most part, those plans are very old. And so it certainly raises 
some questions for us about the appropriate management of those 
areas. I think that is one of the issues that we would like to 
spend more time talking to the Committee about.
    Mr. Otter. Given that in the subsequent question that was 
asked in the second round by Ms. McCollum, I can understand--
and the reading of that section refers to leasing of mineral 
rights and that sort of thing. But it also reverts to the 
consideration for historical uses, does it not?
    Ms. Hatfield. I think that if it reverted back--I am 
assuming that the thrust of the legislation as passed would 
make it revert back. Then the land management agency is going 
to have to go through a planning process to decide what is the 
appropriate use now and that may or may not be wilderness.
    Mr. Otter. No, I understand that. But during the study 
period, during the study time and the designation as the 
wilderness and it stops any leasing of the mineral rights or 
subsurface rights or mining rights or anything like that, but 
in many wilderness--if in a wilderness study area for BLM there 
had been historical grazing rights on that wilderness area, are 
those grazing rights considered a historical use and continued 
during the study period?
    Ms. Hatfield. Yes, sir. We are continuing to allow some 
grazing as long as it, again, does not impair the values for 
which the study area was originally designated. So the defining 
piece in terms of how they are managed is trying to maintain 
the qualities for which it was originally designated.
    Mr. Otter. So there was a qualifying word that you used in 
there, ``some.'' we are quite a few, at least in our area, 
where the historical grazing rights have been discontinued as a 
result of it becoming a study area.
    Ms. Hatfield. Well, it is a management decision. And so is 
does require some management determination. But the thrust of 
the management is to maintain the area in a manner that 
maintains the values that made it a wilderness study area. But 
as you can well understand, those kinds of conflicts are the 
reasons that the agencies would like to have a final 
determination about whether or not these areas are, in fact, 
wilderness areas or if, in fact, they should be open to more 
multiple uses. And that is a congressional decision.
    Mr. Otter. Thank you very much. Thank you, Mr. Chairman.
    Mr. Radanovich. Ms. Hatfield, what in your mind is a final 
determination? Would it be an act of Congress, a law passed or 
would it be a join resolution? Does it need to be a law?
    Ms. Hatfield. I think that under the scheme that is 
currently in place, the Congress would pass a bill designating 
it as wilderness. That is how it has been done.
    Mr. Radanovich. Thank you again for being here as 
witnesses. We will go ahead and call our next panel.
    Mr. Radanovich. The Honorable Randy Johnson is Commissioner 
from Emery County Castle Dale in Utah; The Honorable Chris 
Salove, Commissioner of Owyhee County, Marsing, Idaho; The 
Honorable Douglas Thompson, National Cattlemen's Beef 
Association and Public Lands Council, Lander, Wyoming; Mr. Rick 
Johnson Executive Director of the Idaho Conservation League in 
Boise, Idaho. Mr. Donald Barry, Executive Vice President of the 
Wilderness Society, Washington D.C.
    Gentlemen, welcome to the panel. We are going to go ahead 
and take opening statements from everybody and--testimony, I 
should say. And then open up the panel for questions.
    And Mr. Johnson if you would go ahead and begin and then we 
will just work our way to my right and get everybody's 
testimony. Please note the clock there. It may be far away from 
some of you though we would like to keep testimony under 5 
minutes. I will start tapping my pencil if it goes more. But 
green means go, yellow means speed up, and red means stop.
    Mr. Randy Johnson. Should we do that the way they drive in 
Washington, sort of suggestions?
    Mr. Radanovich. Just like driving a car.

 STATEMENT OF HON. RANDY JOHNSON, COMMISSIONER, EMERY COUNTY, 
                       CASTLE DALE, UTAH

    Mr. Randy Johnson. Mr. Chairman, I come to you from Emery 
County, Utah, a county roughly the size of the State of 
Connecticut with just under 11,000 residents. More than 81 
percent of our county is Federally owned, and another 9 percent 
is owned by the State. Our tax base is mostly from electrical 
generating facilities. Our five power plants provide more than 
65 percent of the power for the State of Utah.
    Clearly, public land management policies deeply impact life 
in Emery Country. Rural communities like Emery County face many 
difficult problems in maintaining economic viability. A big 
part of the problem, if I may say so, is the all-or-nothing 
approach to public land management issues used by many in this 
debate. This has become very harmful and it is deeply 
concerning that in our zeal to protect land and wildlife, we 
are not only ignoring one of our most important national 
treasures, we are actually working to eliminate it. I refer of 
course to the small communities of the rural west.
    It is because of this problem that in 1995, the Emery 
County Commission created the Emery County Public Lands Council 
to act as an extension of the commissioners in dealing with 
complex public land issues. This group meets monthly in a 
public setting and it has MOUs with every agency that operates 
on vast public lands in Emery county. Those agencies meet with 
us monthly as well. The results have been very positive. 
Besides having an excellent working relationship with all the 
agencies that manage our lands, the Public Lands Council has 
become very proactive in public land matters.
    For 7 years now, we have invited stakeholders to our table 
and have developed a collaborative process that has been both 
inclusive and comprehensive. From this process has evolved 
legislation for the San Rafael Swell developed entirely by the 
Public Lands Council, which has twice been introduced here in 
Congress. Most recently we have proposed that the President use 
his powers to protect the San Rafael as a Western Heritage 
National Monument.
    Emery County has become a leader in its proactive approach 
to public land management. We love the lands our ancestors 
settled with their sweat and tears. We are very protective of 
those lands. We are anxious to protect the San Rafael Swell, 
but we recognize the San Rafael is a land of many varied 
treasures. Not only are the cliffs and canyons and mesas 
spectacular, but equally impressive is the human heritage and 
the natural history. We want to protect this land but not just 
for one singular part of what makes the San Rafael spectacular. 
We want to protect all the treasures of this land: The uranium 
mining history, the outlaw history, the pioneer history, the 
traditional uses such as easterin', and well as many others.
    It is from this perspective that I testify today. I am not 
anti wilderness. I am not against preserving pristine qualities 
where they exist. I am against contention and I am against 
letting problems fester for decades. What I am for is 
collaboration. I am for solutions. I am here today because I 
believe that this legislation could help resolve a long 
standing and contentious debate.
    If I may give a few quick reasons why I support H.R. 4620. 
No. 1, two decades of debate and argument is enough. It is time 
we worked it out and get on with our lives. This legislation 
would help us to do that. No. 2, we are not the same as we were 
in the 1960's and 1970's. We have changed as a society. We are 
careful of our environment. We have many layers of protective 
management already on our lands. Wilderness is just one tool in 
a complex management system. It is time to create management 
that reflects our sophistication as an environmentally 
conscious people, and that reflects the complex needs of the 
people who own and use these lands.
    Reason No. 3, the Wilderness Act has been seriously 
weakened by decades of debating its real meaning. The original 
intent of Congress to set aside exemplary lands for future 
generations has been largely ignored. We are now in an ever-
expanding mode where all public lands that are beautiful are 
considered to be potential wilderness. We are attempting to 
create wilderness by reclamation where we ignore the impacts of 
man and attempt to force-fit wilderness wherever we can. This 
is inherently contentious. It creates enemies. H.R. 4620 will 
allow us to resolve these differences.
    Reason number 4, the current wilderness debate nullifies 
all other good efforts to manage and protect our public lands, 
however appropriate they may be. Unless a particular management 
concept contains all the wilderness proposed by wilderness 
advocacy groups, fair consideration of its merits is 
impossible. National wilderness groups unilaterally oppose any 
concept that does not match their acreage quotas, thus 
rendering collaborative and cooperative efforts useless since 
passage of any legislation that does not have the endorsement 
of these groups is virtually impossible. Emery County's own 
H.R. 3625 and H.R. 3605 are excellent examples of this. H.R. 
4620 would effectively compel all stakeholders to make an 
effort to resolve their differences, and thus it would allow 
for fair consideration of healthy collaborative concepts for 
management of our public lands.
    In conclusion, I must say that the only real reason I can 
think of to oppose this legislation is if your entire objective 
is to keep the debate contentious and the conflict endless. I 
respectfully ask this Committee, must we be doomed forever to 
fight this same fight unnecessarily. I submit that to set 
deadlines for designation of wilderness would compel 
stakeholders to reach compromise solutions, to make an effort 
to resolve differences to benefit of all involved, and it is 
time that we do exactly that. I strongly recommend passage of 
H.R. 4620.
    Mr. Radanovich. Thank you very much, Mr. Johnson.
    [The prepared statement of Randy Johnson follows:]

  Statement of Randy G. Johnson, Commissioner, Emery County, Utah, on 
  behalf of Rural Public Lands County Council and Utah Association of 
                                Counties

    Mr. Chairman, I come to you from Emery County, Utah, a county 
roughly the size of the State of Connecticut with just under 11,000 
residents. More than 81% of our county is Federally owned, and another 
9% is state owned. Our tax base is mostly from electrical-generating 
facilities. Our five power plant units provide more than 65% of the 
electrical power for the State of Utah.
    Clearly, public land management policies deeply impact life in 
Emery County. Rural communities like Emery County face many difficult 
problems in maintaining economic viability. A big part of the problem, 
if I may say so, is the all-or-nothing approach to public land 
management issues used by many in the debate. This has become very 
harmful. All-or-nothing philosophies are intolerant. They refuse 
compromise. They are prejudicial and contentious by design, and the 
result is that this is the way we have been forced to do business on 
our public lands for the last twenty years. It is deeply concerning 
that in our zeal to protect land and wildlife, we are not only ignoring 
one of our most important national treasures, we are actually working 
to eliminate it. I refer, of course, to the small communities of the 
rural west.
    It is because of this problem that, in 1995, the Emery County 
Commission created the Emery County Public Lands Council to act as an 
extension of the commissioners in dealing with complex public lands 
issues. This group, made up of the three commissioners and nine other 
people from all areas of experience and expertise, meets monthly in a 
public setting. The Council has a Memorandum of Understanding with 
every agency that does business on Emery County's vast public lands, 
and those agencies meet with us each month. The results have been very 
positive. Emery County has an excellent working relationship with all 
the agencies that manage our lands. Further, the Public Lands Council 
has become very proactive in public land matters. For almost seven 
years now, we have invited stakeholders to our table and have developed 
a collaborative process that has been both inclusive and comprehensive. 
Our rules have been simple: First, we value every viewpoint; second, we 
have no pre-set objectives, but rather we let the process define the 
product; third, we recognize that there are no one-size-fits-all 
solutions; and fourth, we believe that no public land management plan 
will work unless it addresses the needs of the people who use and enjoy 
those lands.
    From this process has evolved legislation for the San Rafael Swell, 
developed entirely by the Public Lands Council, which has twice been 
introduced in Congress. Most recently, we have proposed that the 
President use his powers to protect the San Rafael as a Western 
Heritage National Monument
    Through our efforts, Emery County has become a clear leader among 
counties in its pro-active approach to public lands management. We love 
the lands our ancestors settled with their sweat and tears. We are very 
protective of them. We are anxious to protect the San Rafael Swell. But 
we recognize that the San Rafael is a land of many varied treasures. 
Not only are the cliffs and canyons and mesas spectacular, but equally 
impressive is the human heritage and the natural history. We want to 
protect this land, but not just for one, singular part of what makes 
the San Rafael spectacular. We want to protect all the treasures of 
this land---the uranium mining history, the outlaw history, the pioneer 
history, traditional uses such as ``easterin''', as well as many 
others.
    It is from this perspective that I testify today. I am not anti-
wilderness. I am not against preserving pristine qualities where they 
exist. However, I am against contention. I am against letting problems 
fester for decades. What I am for is collaboration. I am for solutions, 
and I am here today because I believe that this legislation could help 
resolve a long-standing and contentious debate.
    Since being asked to testify, I have wondered what I could say that 
hasn't already been said many times. We have been at each other's 
throats over public land management for so long, it seems impossible to 
say anything that will shed new light on the situation. What I would 
like to do is give you five reasons why I believe that H.R. 4620 should 
be passed by Congress.
    Reason number one: Two decades of debate and argument is long 
enough. Some people will say that this is such an important issue that 
we should hold out for our acreage quotas no matter what happens. I say 
we ought to be ashamed. No one concept fits all the needs of our public 
lands. Further, no one management concept should be allowed to hold 
hostage other good, collaborative progress. That is exactly what 
wilderness has done, and it is time we work things out and get on with 
our lives. This legislation would assure that would happen.
    Reason number two: We are not the same as we were in the 1960's and 
1970's when we were new to environmental concerns. We have changed as a 
society. We have learned. We are careful of our environment. We have 
many layers of protective management on our public lands. Wilderness is 
just one of many tools in a complex management system. Yet some 
approach public lands management as though we were stuck in the 1970's. 
They work to create a false sense of urgency in order to promote their 
acreage quotas. They make it appear as though it is wilderness or 
degradation with nothing in-between. It is time to create management 
that reflects our sophistication as an environmentally-conscious 
people, and that reflects the complex needs of the public who owns the 
land.
    Reason number three: The Wilderness Act has been seriously weakened 
by decades of debating its real meaning. The original intent of 
Congress--to set aside exemplary lands for future generations--has been 
largely ignored. We are now in an ever-expanding mode, where all public 
lands that are beautiful are considered to be potential wilderness. We 
are attempting to create wilderness by reclamation, where we ignore the 
impacts of man and attempt to force-fit wilderness wherever we can. 
This is an unnecessary and unhealthy effort. It is inherently 
contentious. It creates enemies. H.R. 4620 will stop the ever-enlarging 
wilderness monster that we all are forced to live with now, and allow 
us to finally resolve our differences.
    Reason number four: The current wilderness debate nullifies all 
other good efforts to manage and protect our public lands, however 
appropriate they may be. Unless a particular management concept 
contains all the wilderness proposed by wilderness advocacy groups, 
fair consideration of its merits is impossible. National wilderness 
groups unilaterally oppose any concept that does not match their 
acreage quotas, thus rendering collaborative and cooperative efforts 
useless, since passage of any legislation that does not have the 
endorsement of these groups is virtually impossible. Emery County's own 
H.R. 3625 and H.R. 3605 are excellent examples of this. H.R. 4620 would 
effectively compel all stakeholders to make an effort to resolve their 
differences, and thus it would allow fair consideration of healthy 
collaborative concepts for management of our public lands. Given this 
environment, I believe that we would see many collaborative efforts, 
such as has occurred in Emery County, spring up all over the country.
    Reason number five: The only reason to oppose this legislation is 
if your entire objective is to keep the debate contentious and the 
conflict endless in order to continually expand your acreage quotas. It 
becomes a war for the sake of the war. H.R. 1500 is an example of this. 
For many years, the goal for Utah's wilderness advocates was 5.7 
million acres. However, when there was some sentiment in Utah to create 
between 2.5 and 3.0 million acres of wilderness in Utah, the wilderness 
people suddenly found 4.4 million acres of new wilderness, bringing 
their acreage goal to 9.1 million acres. This is not about land 
protection. It is about business. It is a way of doing business that 
would be threatened if solutions were within our grasp. We are talking 
about a dynasty built upon an illusion of urgency--an illusion we have 
helped to create and perpetuate by our inability to collaborate and 
resolve our differences. An ever-expanding monster. A war for the sake 
of a war.
    I respectfully ask this Committee, must we be doomed forever to 
fight this same fight unnecessarily? I submit that to set deadlines for 
designation of wilderness would compel stakeholders to reach compromise 
solutions'to make an effort to resolve differences to the benefit of 
all involved. It is time we do exactly that. I strongly recommend the 
passage of H.R. 4620.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Mr. Chris Salove, if I have got it right, 
from Owyhee County Idaho.

 STATEMENT OF HON. CHRIS SALOVE, COMMISSIONER, OWYHEE COUNTY, 
                         MARSING, IDAHO

    Mr. Salove. One is about as close as the other. I thank you 
for the opportunity to be here before you today. My name is 
Chris Salove and I am elected county commissioner from Owyhee 
County, Idaho.
    Mr. Radanovich. You see this? This gets abused all the 
time.
    Mr. Salove. I am sure you can appreciate that. I am also a 
newly appointed member of the Lower Snake River district, BLM 
Resource Advisory Council. Owyhee County is a very large 
county, about 4.9 million acres. We lie in the southwest corner 
of Idaho bordering Oregon to our west and Nevada to our south.
    Of our 4.9 million acres, over 70 percent is owned by the 
United States and managed by the BLM. The economy of our county 
is dependent upon the continued multiple use of these lands, 
particularly the grazing as mandated in the Taylor Grazing Act, 
the Federal Lands policy and Management Act, and the Public 
Grange Lands Improvement Act.
    The viability of our economy and of the ranching industry 
is threatened by conflicts arising out of arbitrary management 
by our local BLM. To that end, I am here on behalf of the 
Owyhee County Commissioners to testify in favor of H.R. 4620, 
America's Wilderness Protection Act. We believe this Act would 
help resolve the conflicts. We also believe it will benefit the 
land and its resources as well as our economy, the two of which 
are inseparable. There currently is no designated wilderness 
within Owyhee County. We do, however, have four wilderness 
study areas which combined total approximately 750,000 acres. 
The first of these studies began in 1982, the last was 
concluded in 1989. These areas are being managed more 
restrictively than if they were actual wilderness designations.
    When Congress designates a wilderness area, existing rights 
are protected and guidelines are set for future use. When the 
BLM manages under its own administrative policies the 
restrictions are so rigid that they endanger continued multiple 
use. Their don't-touch policy applied to the entire 750,000 
acres, even though the BLM itself only recommends 400,000 acres 
for wilderness.
    They acknowledge that the other 350,000 acres is unsuitable 
due to the need for intensive management actions such as 
control of the rapid invasion of Western Juniper into the sage 
brush grass ecosystems. Within the 400,000 acres, they 
recommend for wilderness they have identified the need for many 
management actions needed to maintain or improve ecosystem 
values. Yet none of these actions ever occur because of their 
rigid don't-touch policy, even though the actions are allowable 
under the Wilderness Act and its extension to FLPMA. We believe 
that BLM's rigid don't-touch management is inconsistent with 
the legislative intent of Congress in passing the Wilderness 
Act of 1964 and the wilderness section of the Federal Land 
Policy and Management Act of 1976.
    The House Committee report as to the Wilderness Act points 
out the importance of legislative, not administrative control 
of wilderness areas. To quote, a statutory framework for 
preservation of wilderness would permit long-range planning and 
assure that no future administrator could arbitrarily or 
capriciously either abolish wilderness areas that should be 
retained or make wholesale designations of individual areas--of 
additional areas, in which use would be limited.
    When Congress broadened the impact of the Wilderness Act to 
the BLM acts by amending FLPMA in 76 the legislative intent was 
the same as that expressed in passing the Wilderness Act. The 
Committee report pointed out that section 603 of FLPMA provided 
that administrative recommendations as to wilderness would be 
submitted to Congress, quote, for appropriate action. The 
Committee report even emphasized that the review process should 
be expedited, stating that the Committee expects the secretary 
to establish priorities in a manner which will expedite the 
review process and which will cause minimum interference with 
existing multiple use management of the public lands.
    The bill now under your consideration is consistent with 
and will implement the intent of Congress stated in these 
reports. For purposes of resolving land use conflicts which are 
harmful to our environment as well as our economy, and for 
purposes of producing clear legislative guidance to the use of 
our unique lands, we ask that you pass America's Wilderness 
Protection Act. And since I have got 30 seconds left, I would 
like to recognize the fact that we have got the Idaho 
Conservation League and the Wilderness Society here, we have 
been working with their Idaho representatives through the 
Owyhee initiative, a collaborative effort began by the Owyhee 
County commissioners. Through that effort I have gained a new 
respect and understanding for these two groups. And I don't 
think we are as far apart as a lot of people would like to make 
out that we are. I think there is a lot of room for us to work 
together and come to an understanding, but it is time to do 
something and quit studying it.
    Mr. Radanovich. Thank you very much, Chris. Appreciate your 
testimony.
    [The prepared statement of Chris Salove follows:]

 Statement of Chris Salove, Member, Snake River BLM Resource Advisory 
                                Council

    My name is Chris Salove. I am an elected County Commissioner in 
Owyhee County, Idaho. I also serve as an appointed member of the Lower 
Snake River BLM Resource Advisory Council.
    Owyhee County, located in the southwest part of Idaho at its 
juncture with Oregon and Nevada, has a huge land mass and over 70% of 
it is owned by the United States. Economic health of our county and its 
citizens is dependent upon livestock grazing as mandated by Congress in 
the Taylor Grazing Act, the Federal Land Policy and Management Act, and 
the Public Rangelands Improvement Act.
    The viability of ranching in our county is threatened by land use 
conflicts which arise out of arbitrary management of Wilderness Study 
Areas by local BLM employees. I appear to testify in favor of America's 
Wilderness Protection Act, H.R. 4620, because I believe it will help 
resolve such conflicts. Passage of the Act will benefit the land and 
its resources which are critical to a sound environment in our County, 
and to the economic stability of our ranchers and our county.
    The two go hand in hand: a sound environment and economic 
stability. We recognize that in Owyhee County, and the Board of 
Commissioners recognizes its responsibility to pursue both.
    Owyhee County contains no designated wilderness. But, BLM studies 
of wilderness potential began in our County 17 years ago. Four separate 
studies have resulted in the placement of about 750,000 acres in 
administrative wilderness study areas. These acres are managed in a far 
more restrictive manner than actual wilderness designations by Congress 
in other parts of the country. When Congress designates a wilderness 
area, it mandates protection of existing rights and it sets the 
guidelines for continued uses such as grazing. But, land which lies 
only in a wilderness study area is managed by the BLM under its own 
administrative policy and procedures which are so restrictive that they 
endanger continued multiple use.
    The irony in our county is that the rigid restrictions do not 
result from recommendations for wilderness designation, but simply from 
the fact that the BLM studied the area for wilderness potential. All 
750,000 acres are rigidly restricted, even though the BLM itself has 
recommended only slightly more than half those acres for wilderness 
designation. The general studies for wilderness potential began in 
Owyhee County in 1982. The last study of the four separate areas 
studied was completed in 1989. The BLM recommended wilderness 
designation for 400,000 acres, and recommended that multiple uses be 
continued without wilderness designation on the other 350,000 acres. 
Much of the 350,000 acre portion of the studied areas was not 
recommended for wilderness designation because of the BLM identified a 
need for intensive management to restore or protect the landscape 
ecology.
    The areas not recommended for wilderness designation have been 
subjected to a ``do not touch'' policy. Such policy of ``non-use'' is 
arbitrarily applied even to those areas which the BLM said were in 
imminent need of intensive management efforts. It is harmful to the 
total environment of Owyhee County for the BLM to refuse to allow 
management improvement actions even in those areas in which the BLM has 
identified the need for intense management.
    That is the dilemma, however, that we face because of the 
administrative tie-up of these ``study areas''. Since the first 
wilderness study Environmental Impact Statement was completed in 1986, 
the studied lands have been off limits to any kind of management. Even 
maintenance of existing range improvements is allowed only with BLM 
approval, and that approval is often denied. Even when the approval is 
granted, the BLM often limits the maintenance activity in a way that 
dramatically increases costs and/or reduces the effectiveness of the 
maintenance work and resulting management of the area.
    Four Wilderness Study Areas were recommended for release to 
multiple use because of significant needs for management of encroaching 
western juniper into sagebrush-grass ecosystems. But, in the absence of 
Congressional action, the management needs identified by BLM personnel 
have been delayed by the same personnel for the past 17 years. The 
continuing and escalating juniper encroachment has resulted in 
deterioration of wildlife habitat, sensitive species habitat, watershed 
function and productivity which continues in those Study Areas to this 
day.
    Even in those areas recommended by the BLM as suitable for 
wilderness designation, the BLM has identified many needs for improved 
management of multiple uses which must be implemented in order to 
maintain and improve landscape scale ecosystem values. However, the BLM 
interim management policy prohibits any such management. The expansion 
and development of western juniper and resulting deterioration of 
watershed function and landscape ecosystem values continues unabated. 
Range improvements that would apply livestock grazing treatments in a 
manner that increases the rate of watershed improvement on a landscape 
scale are routinely prohibited in spite of the fact that such 
improvements are allowable under the Wilderness Act and the extension 
of that Act to BLM managed lands by FLPMA.
    In the most recent Resource Management Plan completed by the BLM 
for our County, issued in 1999, the BLM acknowledges that intensive 
management is necessary on public lands lying within five study areas 
covered by the 1986 Environmental Impact Study related to the Owyhee 
Amended Wilderness Report. Sixty percent of these particular lands have 
been recommended for non-wilderness because of the dramatic juniper 
encroachment. Yet, to this date, no management action has been 
initiated to address the juniper encroachment problem.
    Since the early days of the prior Administration in Washington, 
emphasis has been placed on riparian area improvement, restoration, and 
protection. Each time we review an allotment evaluation in our County 
we see the BLM emphasizing riparian condition. Yet, water developments 
which could help immeasurably in riparian protection, are restricted 
and denied in these Study Areas. A well which was put in prior to 
commencement of the wilderness study in the Jack's Creek area of our 
County, covered by the 1989 Environmental Impact Statement, still sits 
today without a pump installed---representing potential for riparian 
protection, stymied by BLM restrictions.
    Let me tell you of a horrible example of how the BLM restrictively 
limits riparian and ecological improvements. In the early 1990s, 
ranchers who share an allotment in Owyhee County were granted 
permission to build a riparian protection fence, part of which would be 
in a Wilderness Study Area. But, the permission was so restrictive that 
no one could reasonably have been expected to complete the fence under 
the terms specified by the BLM. The ranchers were given only 4 days to 
build a 3 mile fence in extremely rough terrain. Materials had to be 
carried in on foot because no motorized equipment could be used in the 
area. The ranchers requested that they be given more time, but the BLM 
refused, insisting that the fence had to be completed in its entirety 
within the four days.
    John Fend of the BLM (who now holds a position in the Bureau in 
D.C.) warned the ranchers that if the fence was not entirely completed 
within the four days, the ranchers would have to remove those portions 
which had been completed. A series of questions about leniency as to 
the fourth day made it clear that the BLM had no intention that the 
fence could be completed. The BLM position was crystal when Fend 
replied ``no'' to the question ``If we have the whole fence completed, 
but need to string one strand of wire 100 feet, can we do that on the 
5th day?''
    On the first of the allotted 4 days, the ranchers hand carried 
posts and wire into the area, laying the supplies out along the three 
mile fence course. Working from before dawn until after dark, the 
ranchers could see that they would not be able to complete the task.
    But, on day 2, before dawn, as they made their way to the fence 
line, they saw their friends and neighbors streaming toward them. 32 
men, women and children in this sparsely populated region, came with 
wire stretchers, post pounders and other tools necessary to complete 
the job. They had heard what the BLM had done, and were determined to 
help make the improvement which would enhance the ecology of the 
allotment.
    With the help of their neighbors, the fence was completed at 6pm on 
the fourth day. Just after the work was finished, John Fend called one 
of the ranchers and told her that the work would have to stop because 
the time was up. She told him that the work was completed, and he was 
stunned by the news. It was obvious that the BLM had not expected that 
the fence improvement could be made in the time allotted.
    Shortly thereafter, an anti-grazing conservation group filed an 
appeal of the decision to permit construction of the fence. Without 
consulting the ranchers who had worked so hard with their neighbors' 
help to meet the impossible terms, in fact without even advising them, 
the BLM settled the appeal and told the ranchers the fence would have 
to be removed.
    BLM fire crews then went into the area, including the Wilderness 
Study Area, with motorized vehicles and tore out the fence. They made 
no attempt to even save the wire, balling it up so that it would 
useless. The motorized vehicles damaged the resource. Ranchers have 
pictures evidencing this travesty in the Wilderness Study Area.
    The rigid interim management policy applied by the Idaho BLM to the 
administrative wilderness study areas needing intensive management is 
harmful to the environment, to viable multiple uses as mandated by 
Congress and to the economic welfare of our citizens. The only 
management options considered by the BLM within the administrative 
wilderness study areas are prohibitions for recreational access and 
elimination of livestock grazing. Ironically, proper management of 
recreational uses and proper management of livestock grazing are the 
most effective tools to preserve and enhance the landscape scale 
ecosystem function in the unique areas of Owyhee County.
    We believe that the rigid ``no touch'' management policy is 
inconsistent with the legislative intent of Congress in passing the 
Wilderness Act of 1964 and the wilderness section of the Federal Land 
Policy and Management Act of 1976. The House Committee Report as to the 
Wilderness Act pointed out the importance of legislative, not 
administrative, control of the wilderness areas:
        <plus-minus><plus-minus>A statutory framework for the 
        preservation of wilderness would permit long-range planning and 
        assure that no future administrator could arbitrarily or 
        capriciously either abolish wilderness areas that should be 
        retained or make wholesale designations of additional areas in 
        which use would be limited.''
    The Committee Report also stated: ``Furthermore, by establishing 
explicit legislative authority for wilderness preservation, Congress is 
fulfilling its responsibility under the U.S. Constitution to exercise 
jurisdiction over the public lands.''
    The bill now under your consideration is consistent with, and will 
implement, the intent of Congress stated in that Report. It will assure 
that it is Congress, not an endless administrative policy, which will 
mandate the designations and the uses of the land within those 
designations. The Congressional intent in passing the Wilderness Act 
was to exercise its constitutional responsibility for management of the 
public lands, not leave that responsibility to administrators without 
Congressional designation. ``America's Wilderness Protection Act'' will 
implement that intent.
    When Congress broadened the impact of the Wilderness Act to the BLM 
lands by amending FLPMA in 1976, the legislative intent was the same as 
that expressed in passing the Wilderness Act. The Committee Report 
pointed out that Section 603 of FLPMA provided that administrative 
recommendations as to wilderness designation would be submitted to 
Congress ``for appropriate action''.
    There is no evidence in the report that the Committee intended that 
there be no action by Congress once the recommendation was received, 
and that during the period of no Congressional action, the multiple 
uses of the area would be rigidly curtailed. Rather, the Committee 
foresaw ``appropriate action'' by Congress once a recommendation was 
received.
    The Committee Report even emphasized that the review process should 
be expedited. The Report stated that the Committee ``expects the 
Secretary to establish priorities in a manner which will expedite the 
review process and which will cause minimum interference with existing 
multiple use management of the public lands.'' ``America's Wilderness 
Protection Act'' will expedite Congressional review of administrative 
recommendations, and will assure that long delays and inaction will not 
result in harm to the environment including the human element of the 
environment.
    The FLPMA Committee Report made it clear that Congress did not 
intend for long Congressional delays to result in rigid restriction of 
use. As to those areas recommended for wilderness, the Committee Report 
pointed out that the Secretary would have authority to allow at least 
minimum management improvements ``such as wildlife habitat and 
livestock control improvements where needed for protection or 
maintenance of the lands and their resources and for continuation of 
their authorized uses.'' That authority has not been exercised in our 
County. Through the many years since the recommendations were furnished 
to Congress, permission for improvements has repeatedly been withheld.
    Moreover, there is nothing in the Committee Report evidencing an 
intent to allow the BLM to impose rigid use limitations even on those 
study areas not recommended for wilderness designation. Yet, in our 
County, management improvements have been denied in those areas which 
the BLM determined to be unsuitable for wilderness designation.
    ``America's Wilderness Protection Act'' does not endanger 
wilderness designations. It simply places a time limit for Congress to 
act on the agency's recommendations. If Congress has not accepted a 
recommendation to designate wilderness within the time limit set by the 
Act, the ``wilderness study area'' is released so that management 
actions can be taken to protect the ecology of the landscape. Timely 
action by Congress will call for Congress to exercise its rightful 
jurisdiction over use of the public lands as emphasized in the 
Wilderness Act Committee Report in 1974. It will be Congress which sets 
the parameters for use in the wilderness designations, and in all 
others the multiple uses authorized by Congress will continue.
    For purposes of resolving land use conflicts which are harmful to 
our environment, for purposes of providing clear legislative guidance 
as to the use of unique lands, we ask that you pass ``America's 
Wilderness Protection Act''.

                               PROPOSAL:
    There be established the Owyhee Landscape Conservation Center which 
shall be operated to implement the Owyhee Initiative which is a 
landscape-scale program to preserve the natural processes that create 
and maintain a functioning, un-fragmented landscape supporting and 
sustaining a flourishing community of multiple uses, to preserve 
economically viable livestock grazing, and to preserve and protect 
cultural resources.
    The Owyhee Landscape Conservation Center shall be operated under 
the direction of the Owyhee Scientific Management Review Team, in 
coordination with the land grant University of Idaho.
    The OSMRT shall be made up of representatives of the University of 
Idaho, conservation groups, county and state government, the Bureau of 
Land Management and Federal management and research agencies, livestock 
grazing industry, recreation groups, and the Shoshone-Paiute Tribes 
selected by the Owyhee Initiative Work Group which shall also identify 
the qualifications for membership on the OSMRT. When the member 
organizations have been chosen by the Owyhee Initiative Work Group, the 
organizations may submit nominations of persons who meet the 
established qualifications. From the nominees the Initiative Work Group 
shall select the members of OSMRT to serve staggered two and three year 
terms. The Chair of the Owyhee Scientific Management Review Team shall 
be a representative of the University of Idaho.
                                 ______
                                 
    Mr. Radanovich. Next up is the honorable Doug Thompson from 
the National Cattlemen's Beef Association. Welcome, Doug, and 
please begin your testimony.

 STATEMENT OF HON. DOUGLAS THOMPSON, NATIONAL CATTLEMEN'S BEEF 
     ASSOCIATION AND PUBLIC LANDS COUNCIL, LANDER, WYOMING

    Mr. Thompson. Mr. Chairman and members of the Committee, my 
name is Doug Thompson. I would like to thank the Committee for 
the opportunity to testify on H.R. 4620. My wife and I own and 
operate Myers Land and Cattle Company, with the help of my 
daughter and son-in-law. Our ranch is in south central Wyoming 
and is a third-generation ranch with fourth generation 
preparing to take the reins. I am the past Chairman of the 
Wyoming State Grazing Board and serve as a Fremont County 
commissioner. Today I speak on behalf of the National Public 
Lands Council and the National Cattlemen's Beef Association.
    H.R. 4620 is most timely in nature, most urgently needed. 
There must be a resolution to the wilderness study issue and 
now is the time to act. We agree with section 2, two statements 
are particularly important. First, ``wilderness study area 
status was not intended as a substitute for wilderness 
designation by Congress.'' The other, ``it was not the 
intention of Congress that areas continue under wilderness 
study areas status indefinitely.'' Current practice contradicts 
both these findings. Since Congress alone has the authority to 
create wilderness without congressional action, wilderness 
study areas will continue indefinitely and land management 
agencies will continue to create de facto wilderness. We agree 
that all wilderness study areas should either be designated 
wilderness or returned to multiple use status and that the 
perpetuation of wilderness study area status is undesirable.
    Over the course of time, successive Federal land managers 
have taken more and more restrictive possessions on permitted 
activities. Activities originally allowed under FLPMA have 
become prohibited or extremely restricted. Ranchers and energy 
companies in Wyoming and across the west are finding ever-
increasing restrictions and difficulties on exercising their 
valid existing rights and permitted use.
    We agree that section 3's timetable for wilderness study 
completion provides appropriate and adequate options for 
resolution of the wilderness study area situation. For over 25 
years, the BLM has placed over 26 million acres in wilderness 
study areas. Only 36 percent of this acreage was even 
recommended for wilderness designation. Nearly 17 million acres 
were not recommended as wilderness but continued to be managed 
under the most restrictive land use status possible, that of a 
wilderness study area. The result is a severe negative impact 
on our economies, school funding, basic services because of the 
loss of multiple use and the associated revenue.
    We agree that a maximum time limit must be established to 
prevent continuing non-action. The 10-year limit is most 
generous, but a shorter timeframe is more appropriate, 
considering that some wilderness study areas have been in place 
for over 25 years. As Congress designates wilderness, we ask 
that you bear in mind what the general public really believes 
wilderness is. There is a wide gap between wilderness as 
envisioned by the wilderness advocates and the wilderness 
expectations of the general public. For the first group, only 
nonuse locked up areas will satisfy, while the second group 
simply wants access and reasonable use of our nation's pristine 
natural beauty.
    Concerning subsequent wilderness study areas, the authority 
to designate wilderness study areas under section 603 has long 
since expired. Any authority under sections 201 and 202 is 
restricted to lands acquired by the BLM through gift sale, 
exchange or transfer. Lands previously determined not suitable 
for wilderness study areas should not be reevaluated. 
Reevaluation drains valuable resources which are needed for 
ongoing management actions. We agree with section 3 that areas 
released from wilderness study area status should be not be 
studied again. These lands should be returned to multiple use 
until a subsequent land use planning process determines a long-
term status. Further, the BLM should be mandated to restore, 
reauthorize any activity such as AUM reductions, improvements 
or access roads that were restricted solely as a result of 
wilderness study area designation.
    In closing, I have three attachments I would like to have 
part of this testimony. I would be glad to answer any questions 
and thank you for the opportunity to testify.
    Mr. Radanovich. Is there any objection to those attachments 
being included in the record? Hearing none so ordered.
    [The prepared statement of Mr. Thompson follows:]

 Statement of Douglas L. Thompson, Wyoming Rancher and Fremont County 
   Commissioner, Representing the National Public Lands Council and 
                 National Cattlemen's Beef Association

    Mr. Chairman and members of the Committee on Resources: I testify 
on Congressman Otter's bill, H.R. 4620, entitled ``America's Wilderness 
Protection Act.'' Allow me to begin with a short introduction of 
myself. My name is Douglas L. Thompson. I own and operate Myers Land 
and Cattle Company, a cattle ranch in south central Wyoming along the 
Sweetwater River on Beaver Rim. This is a third generation ranch with 
the fourth generation preparing to take the reins. My background 
includes a BA degree in Business and Math Education. I have served in 
numerous leadership positions in both community and industry related 
activities, such as:
    <bullet> Past President-Fremont County Cattleman's Association
    <bullet> Past Vice-president-Wyoming Stock Growers Association
    <bullet> Current President-Lander District Grazing Board
    <bullet> Past Chairman-Wyoming State Grazing Board
    <bullet> Fremont County School District 9 Trustee-20 years
    <bullet> Past President-Wyoming School Boards Association
    <bullet> 4-H Leader-20 years
    Currently, I am in my second year as a Fremont County Commissioner, 
serving as our county's representative on the Interdisciplinary Team 
for the Jack Morrow Hills Coordinated Activity Planning process, having 
been granted Cooperating Agency status with special expertise in 
grazing and socio-economics. This varied and diverse background has 
enabled me to view the current wilderness situation from many different 
perspectives.
    Today, I speak as a representative of the National Public Lands 
Council and National Cattleman's Beef Association. I am a member of 
each of these organizations and serve as a Wyoming representative to 
the National Cattlemen's Beef Association Federal Lands Committee and 
serve as a Wyoming representative on the National Public Lands Council 
Board of Directors. Also, the National Association of County Officials 
endorses my testimony.
    This bill H.R. 4620 is most timely in nature and most urgently 
needed. There must be some resolution to the Wilderness Study Area 
issue and now is the time to act.
    We fully agree with Section 2 Findings and Purpose. Two statements 
are particularly important. Section 2 (3) states, ``Wilderness Study 
Area status was not intended as a substitute for wilderness designation 
by Congress,'' and Section 2 (4) states, ``It was not the intention of 
Congress that areas continue under Wilderness Study Area status 
indefinitely.'' Current practice contradicts both of these findings. 
Since Congress alone has authority to create wilderness, without 
Congressional action Wilderness Study Areas will continue indefinitely 
and land management agencies will continue to create de facto 
wilderness-more land in Wilderness Study Area status.
    We further agree with subsection (4) that all Wilderness Study 
Areas should either be designated wilderness or released back to 
multiple-use status and that the ``perpetuation of Wilderness Study 
Area status is undesirable.'' Over the course of time, successive 
Federal land managers have taken more restrictive positions on 
permitted activities in Wilderness Study Areas. Activities originally 
given exceptions under FLPMA Section 603c to the non-impairment 
standard (grand fathered uses) have become prohibited or extremely 
restricted use. One rancher in our county lost the grazing use of 9000 
acres in his allotment when the area manager decided that grazing was 
not appropriate for the Wilderness Study Area. Another rancher is 
currently litigating a situation where he was originally allowed to 
maintain reservoirs in a Wilderness Study Area in his grazing 
allotment, but now the BLM is trying to deny him the ability to fulfill 
the maintenance obligations in the terms and conditions of his grazing 
permit. Energy companies in the Jack Morrow Hills are finding ever-
increasing restrictions and stipulations on exercising their valid 
existing leases in current Wilderness Study Areas. Perpetuation of 
Wilderness Study Area status is certainly undesirable.
    We agree that Section 3 Timetable for Wilderness Study Completion 
provides appropriate and adequate options for resolution of Wilderness 
Study Area Status. Section 3 (a)(1) is especially important. For over 
25 years the BLM has placed over 26 million acres nationwide in 
Wilderness Study Area status.
    However, according to a 1993 GAO report, only 36.2% of this acreage 
was recommended for wilderness designation. 63.8% or 16,785,826 million 
acres that were NOT recommended by the Secretary of Interior as 
Wilderness have continued to be managed by the BLM in the most 
restrictive land status possible-Wilderness Study Area status.
    The result is a severe negative impact to our economies, schools, 
and basic services caused by the loss of multiple-use options and 
revenue. These 17 million acres could have been used by recreation 
enthusiasts, people with disabilities, senior citizens, and others 
whose use is excluded by Wilderness Study Area status. The 
recommendations of de facto non-use by the Federal land management 
agencies needs to be acted upon by Congress.
    We agree that a maximum time limit must be established to prevent 
continuing non-action on this subject. We believe that the 10-year 
limit in Section 3 (a)(2) is most generous, but feel that a shorter 
time frame is more appropriate, considering that some Wilderness Study 
Areas have been in place for over 25 years. Whether it is 10 years or a 
shorter period, it is critically important to the final resolution to 
this situation to set a maximum time limit for action.
    We would ask that as Congress designates wilderness as referred to 
in Section 3 (a)(3) that the decision makers bear in mind what the 
general public believes wilderness is. There is a wide gap between 
wilderness as envisioned by the wilderness advocates and the wilderness 
expectations of the general public.
    For the first group, only a no-use, locked-up area will satisfy; 
while the second group simply wants access and reasonable use of our 
nation's pristine natural beauty.
    Concerning Section 3 (b) Subsequent Wilderness Study Areas, it is 
the position of the organizations represented by this testimony that 
authority to designate Wilderness Study Areas under Section 603 of 
FLPMA has long since expired; and that any authority conveyed under 
Sections 201 and 202 of FLPMA is restricted to lands acquired by the 
BLM through gift, sale, exchange, or transfer since the 603 process was 
completed. Lands previously determined not suitable for Wilderness 
Study Area status should not be re-evaluated in any subsequent planning 
process. Such re-evaluation would prove costly, time-consuming, and a 
drain on valuable resources which are needed for ongoing management 
actions.
    We agree in Section 3(c) Release from Wilderness Study Area Status 
that areas released should not be studied again. However, we believe 
that lands should be released back to multiple-use status until a 
subsequent land use planning process determines a long-term status for 
such lands.
    In closing, I would relate two examples that clearly point to the 
necessity of crafting and implementing a resolution to the Wilderness 
Study Area situation.
    First, in 1986 the BLM produced a document entitled ``Wilderness 
Study Areas and Wilderness-Questions and Answers About Domestic 
Livestock and Wildlife Management.'' This document paints a picture of 
accommodation and consideration of existing uses. For example, 
equipment and vehicles could be used for maintenance, livestock 
facilities, and fences. Also, water development could occur, and 
wildlife management practices could be done on a case-by-case basis. 
All this has changed over time and a strict non-impairment, non-use 
standard appears to be the practice of the day.
    Secondly, an article by Bill Sizer with John Carr entitled ``The 
Trouble with Wilderness'' points out the gap between the rhetoric and 
the reality relating to the Arizona Fish and Game Department's 
management activities in wilderness areas. In the article, examples of 
land managements agency's efforts to thwart legitimate wildlife 
research, law-enforcement activities, and habitat management reveal the 
real consequences of not resolving the wilderness issue.
    Thank you once again for the opportunity to testify on H.R. 4620.
                                 ______
                                 
    Mr. Radanovich. Mr. Rick Johnson, welcome to the Committee 
from the Idaho Conservation Association. And please begin your 
testimony.

     STATEMENT OF RICK JOHNSON, EXECUTIVE DIRECTOR, IDAHO 
               CONSERVATION LEAGUE, BOISE, IDAHO

    Mr. Rick Johnson. Thank you for the opportunity to comment 
on H.R. 4620. It is a pleasure to see Mr. Otter from Idaho and 
a colleague from Owyhee County.
    For the past 8 years, I have been executive director of the 
Idaho Conservation League. We work to protect and restore 
Idaho's water, wild lands and wildlife, do public education, 
citizen action and professional advocacy. Our organization is 
nearly 30 years old, has three offices in Idaho, and we are the 
State's largest conservation group.
    I have been involved in every legislative wilderness 
discussion in the State of Idaho one way or another since the 
River of No Return bill passed in 1980. I have more than a 
passing familiarity with Idaho's wilderness. In fact, my first 
appearance before this Committee was to testify on wilderness 
issues was in 1984. And Mr. Larry Craig was occupying the seat 
now held by Mr. Otter.
    There are unprecedented opportunities to advance wilderness 
bills throughout the west and also in Idaho and for this reason 
and others we oppose this bill. Idaho has over 4 million acres 
of designated wilderness and another 10 million or so acres 
that are unprotected. Wilderness is an identifying feature of 
our incredibly beautiful State. Idaho is, in fact, the 
wilderness State. And many Idahoans are very, very proud of 
this. Yet in rural Idaho today, as throughout much of the west, 
the impact of a shrinking economy and urbanization are creating 
real pains. There is no denying that. Counties and communities 
are looking for a villain and ``procedurally locked up,'' 
roadless land is frequently it. That is a false accusation. The 
economic and demographic forces impacting rural Idaho are far 
greater than any administrative procedures impacting Idaho's 
roadless lands.
    Further rural Idaho is being presented with a false hope of 
some holy grail of riches that would come from prospective 
development of the wildlands that an ever-growing segment of 
Idaho would like to see protected. If these lands were valuable 
for development, the economic forces for that development would 
have long ago been more clear and successful in articulating a 
vision for these lands.
    This bill assumes wilderness bills need a new catalyst. We 
disagree. If a catalyst is needed, let it be what it has always 
been, leadership from Members of Congress. Successful 
wilderness bills result from a synergy between Members of 
Congress and involved interest groups who do the hard work of 
building compromise and common ground. Members of Congress can 
assemble the interest groups, convene the meetings, and use 
your leadership to create the package. That H.R. 4620 now 
originates in Idaho I find perplexing.
    To the best of my knowledge, Representative Otter has not 
attempted to write a wilderness bill or assemble the 
appropriate interest groups to create one. On the other hand, 
Representative Simpson has spoken to our organization a number 
of times about a variety of issues, including wilderness 
potential for the Boulder White Clouds in Idaho's second 
district. We have a working relationship and his office has 
convened a subset of interest groups on this subject as 
recently as just last week.
    Idaho's Senator Crapo is similarly involved in good faith 
direct discussions involving interest groups on the wilderness 
issue and other concerns in the Owyhee Canyon lands. This has 
been going on for more than 9 months. In fact, the development 
on that recently is that the Owyhee Cattlemen's Association has 
now developed its own wilderness proposal as part of the 
discussion, a very positive development.
    My staff is talking with staff from Senator Crapo and 
Representative Simpson's office regularly about wilderness and 
related issues of a constant basis. This is how we will get the 
job done. I am similarly perplexed that Idaho's delegation, 
long critical of Federal land agencies, would now advance 
legislation so based on a Federal agency's recommendation. I 
suspect a round effort to undercut the wilderness movement is, 
in fact, the intent behind the bill. That is unfortunately 
because it only fosters the wedges between rural and urban 
Idaho that we should all be working to bridge. And doing so 
fosters entirely unrealistic expectations for rural Idaho.
    I once helped lead nationality level campaigns for a 
national conservation group. I assure you that H.R. 4620 will 
be fought hard by the environmental community. Ironically for 
the sponsors, I believe this fight will strengthen the national 
wilderness movement by providing a cause to rally around. I am 
also troubled that national environmental--anti environmental 
exposure only hurts Idaho's already beleaguered reputation. 
Also fighting this bill will hurt the good faith wilderness 
discussions already underway in Idaho.
    Politically speaking, Idaho is well positioned with the 
House and Senate administration. This presents an opportunity 
to craft a bill that has true Idaho approved identity to it 
with a minimum of outside interference. Just as it took the 
established conservative credentials of Nixon to create a 
relationship with China, it will take the conservative 
credentials of western republicans to successfully advance 
wilderness in Idaho. But unlike past attempts, we must approach 
the resource and each other with a level respect. Thank you 
very much.
    Mr. Radanovich. Thank you, Mr. Johnson, for your testimony.
    [The prepared statement of Rick Johnson follows:]

   Statement of Rick Johnson, Executive Director, Idaho Conservation 
                                 League

    Thank you for the opportunity to comment on H.R. 4620. It is a 
pleasure to see my friends in the Idaho House delegation.
    For the past eight years I have been the executive director of the 
Idaho Conservation League. We work to protect and restore Idaho's 
water, wildlands, and wildlife of Idaho through public education, 
citizen action, and professional advocacy. Our organization is nearly 
30 years old, has three offices in Idaho, and we are the state's 
largest conservation group.
    Idaho has not passed a wilderness bill since 1980. In that time 
there have been several attempts led by members of the Idaho 
delegation, but none have reached this Committee in well over a decade.
    As a citizen activist, as a public lands lobbyist for the Sierra 
Club for eight years, and as staff of the Idaho Conservation League for 
a total of ten years, I have been involved in every legislative 
wilderness discussion in the state of Idaho since the River of No 
Return bill passed in 1980. I have more than a passing familiarity with 
Idaho's wilderness. My first appearance before this Committee to 
testify on wilderness issues was in 1984.
    Getting a wilderness bill passed through Congress and signed by the 
president is very hard. You know better than I that passing any 
legislation is hard, but wilderness bills have a history of being 
particularly challenging in the West.
    That said, I believe we have unprecedented opportunities to advance 
wilderness bills throughout the West and also in Idaho. While I have 
current and past experience with the national wilderness issues, I will 
limit my testimony to Idaho.
    First, let me set the stage. Idaho is the Wilderness State. With 
over 4 million acres for designated wilderness and another 10 million 
or so acres that are unprotected, Wilderness is an identifying feature 
of our incredibly beautiful state. Twenty-one of the unprotected areas 
in Idaho are over 100,000 acres in size. To those familiar with 
wilderness issues, this is a remarkable statistic.
    In rural Idaho today, as throughout much of the West, the impact of 
shrinking economies and urbanization are creating real pain. Counties 
are looking for a villain, and ``procedurally locked up'' roadless land 
is frequently it.
    That is a false accusation. The economic and demographic forces 
impacting rural Idaho are far greater than any administrative 
procedures impacting Idaho's roadless lands.
    Further, rural Idaho is being presented with a false hope for some 
Holy Grail of riches that would come from prospective development of 
the wildlands that an ever growing segment of Idaho would like to see 
protected. If these lands were valuable for development, the economic 
forces for that development would have long ago been more clear and 
successful in articulating a vision for these lands. Again, there are 
no barriers to development on many of these unprotected lands. Yes, 
Wilderness Study Areas retain barriers to development, but that is a 
minority of the undesignated lands in Idaho, and they became WSAs, in 
part, due to an absence of economic value.
    I provide a review of the numerical impacts of H.R. 4620 and Idaho 
Conservation League wilderness recommendations as an attachment at the 
end of my written testimony, but history has clearly shown that when 
wilderness issues are reduced to numbers, everyone on all sides lose 
touch with what the real issues are.
    My main point is that this bill is unnecessary, and casts a 
troublesome cloud on the opportunity before us in Idaho.
    1. LThis bill assumes wilderness bills need a new catalyst. We 
disagree. If a catalyst is needed, let it be what it has always been: 
leadership from members of Congress. Successful wilderness bills result 
from a synergy between members of Congress and involved interest groups 
who do the hard work of building compromise and common ground. So what 
you can do as members of Congress is to assemble the interest groups, 
convene the meeting, and use your leadership to create the package.
    That H.R. 4620 now originates in Idaho I find perplexing. To the 
best of my knowledge, Rep. Otter has never attempted to write a 
wilderness bill or assemble the appropriate interest groups to create 
one. On the other hand, Rep. Simpson has spoken to our organization a 
number of times about a variety of issues including wilderness 
potential for the Boulder White Clouds in Idaho's Second District. We 
have a working relationship, and his office convened a subset of 
interest groups on this subject just last week. Idaho's Sen. Crapo is 
similarly involved in good faith, direct discussions involving interest 
groups on the wilderness issue and other concerns in the Owyhee 
Canyonlands, and this has been going on for more than nine months.
    My staff is talking with staff from Sen. Crapo and Rep. Simpson 
about wilderness and related issues on a regular basis, to do the hard 
work to achieve real solutions that include all interests. This is how 
we'll get the job done.
    We don't need this bill in order to do the work Idaho needs to do 
to resolve wilderness issues. The Idaho delegation members who are 
interested are already engaged in trying to break the legislative 
logjam that has held this issue up for years.
    2. LH.R. 4620 places a huge amount of weight on the appropriateness 
of BLM Wilderness Study Areas and USFS wilderness recommendations.
    I am similarly perplexed that Idaho's delegation--long critical of 
Federal land agencies--would now advance legislation so fundamentally 
based on BLM and U.S. Forest Service wilderness recommendations and 
WSAs. The Idaho Conservation League has grave problems with the BLM and 
USFS wilderness recommendations, and I am sure you do as well, though 
perhaps for different reasons.
    These recommendations should play a consultative role in wilderness 
designation processes, but we all know that Congress is the final 
arbiter. Again, a legitimate wilderness process requires active 
engagement of members of Congress, not some artificial hammer.
    3. LFinally, H.R. 4620 is a major challenge to the wilderness 
movement of the entire United States.
    I suspect an effort to undercut the wilderness movement is the 
intent of this bill. That is unfortunate, because that only fosters the 
wedges between rural and urban Idahoans we should all be working to 
bridge, and by doing so this bill fosters entirely unrealistic 
expectations for rural Idaho. Further, as we all know, it is easy to 
stall or never start a legislative process, so this bill by intent, is 
prejudiced against wilderness protection.
    This bill will not pass because it is a fundamental assault on the 
historic and ultimately fair processes for advancing wilderness 
protection.
    I once helped lead national-level campaigns for a national 
conservation group. I assure you H.R. 4620 will be fought hard by the 
environmental community. Ironically for the sponsors, I believe this 
fight will strengthen the national wilderness movement by providing a 
cause to rally around.
    Over many years, in individual bills, Congress has debated and 
generally rejected ``release language'' as a trade off for designated 
wilderness. This bill releases lands regardless of designations; there 
isn't even a proposed trade-off.
    I am also troubled that national anti-environmental exposure only 
hurts Idaho's already beleaguered reputation. Also, fighting this bill 
would hurt the good-faith wilderness discussions already underway in 
Idaho today, and in the future.
Summary
    This bill is not needed. Idaho and the nation needs to move forward 
on wilderness issues, but that requires leadership not drop-dead 
deadlines. It requires a spirit of compromise and it requires a respect 
for the land. This bill demonstrates neither.
    Wilderness protection is a well-established purpose of our public 
lands. Arbitrarily cutting off any and all consideration of future 
Wilderness designations makes no more sense than saying that all lands 
now not being logged should forever be banned from consideration for 
logging.
    This is a great time to advance wilderness bills in Idaho the old-
fashioned way.
    <bullet> Politically speaking, Idaho is well positioned with the 
House, Senate, and administration. This presents an opportunity to 
craft a bill that has a true Idaho-approved identity to it, with a 
minimum of outside interference, yet still retains a high likelihood of 
passing Congress and being signed by the President.
    A. LJust as it took the established conservative credentials of 
Nixon to establish a relationship with China, it will take the 
conservative credentials of Western Republicans to successfully advance 
wilderness issues in Idaho. But unlike past attempts, we all must 
approach the resource and each other with a level of respect.
    B. LThere is a motivated and increasingly sophisticated 
conservation community ready to get to work. The Idaho Conservation 
League is very closely involved in two processes right now to advance 
wilderness bills in Idaho, both engage the Idaho congressional 
delegation, and both could succeed. Success in either place will do far 
more to break the wilderness legislative logjam for Idaho.
    Politics are the art of the possible, and wilderness bills pass 
because of successful engagement of politics. Let's do it, and that 
means putting aside H.R. 4620.
    Thank you for the opportunity to speak today.
             H.R. 4620 and Idaho public lands <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Source: The Wilderness Society, Idaho Regional Office.
---------------------------------------------------------------------------
                 bureau of land management (blm lands)
    Idaho has roughly 11.9 million acres of BLM lands. Only 1.8 million 
of those lands are managed as Wilderness Study Areas (WSAs). The BLM 
has only recommended half of these lands (972,239 acres) to be 
designated as wilderness. Only 802 acres of BLM lands are officially 
designated as wilderness in Idaho.
    Conservation groups consider the both the BLM wilderness 
recommendations and the WSAs themselves to be inadequate. The Idaho 
Conservation League supports the Idaho Citizen's Desert Wilderness 
Proposal. This is a 3,420,000 acres proposal on BLM lands. This 
proposal also recommends that 590,000 additional acres be studied for 
eligibility for wilderness designation.
U.S. Forest Service Lands
    Idaho's National Forests contain 1,292,006 acres that have been 
recommended by the Forest Service to be designated as wilderness. H.R. 
4620 would give only 10 years time for resolution of bills before all 
these lands would be released from further consideration as wilderness.
    Conservation groups have long considered USFS wilderness 
recommendations to be woefully inadequate. The Idaho Conservation 
League supports a minimum of 6 of the 9 million acres of remaining 
roadless areas in the National Forests of Idaho be designated as 
wilderness. The remaining lands should remain undeveloped, unroaded, 
and wild in character.
                                 ______
                                 
    Mr. Radanovich. Next up is Mr. Don Barry, executive Vice 
President of the Wilderness Society. Don, welcome and please 
begin your testimony.

STATEMENT OF DONALD BARRY, EXECUTIVE VICE PRESIDENT, WILDERNESS 
                   SOCIETY, WASHINGTON, D.C.

    Mr. Barry. With your permission, I would like to request 
that my written statement be submitted for the record and I 
would like to just make a few oral comments.
    Mr. Radanovich. That would be just fine. There is no 
objection here.
    Mr. Barry. I would also like your permission to submit for 
the record on behalf of the Nevada wilderness coalition some 
comments that they also have on the bill.
    Mr. Radanovich. No objection. So ordered.
    Mr. Barry. I am testifying on behalf of the Wilderness 
Society and the Southern Utah Wilderness Alliance in strong 
opposition to H.R. 4620. H.R. 4620 is called the America's 
Wilderness Protection Act. But after close to 30 years of 
working on Federal land conservation activities in this town, I 
am hard pressed to think of another bill that would have as 
sweeping and an adverse effect on wilderness quality public 
lands as H.R. 4620.
    I would like to lay out five reasons why I think passage of 
H.R. 4620 would be a terrible blow to the wilderness heritage 
of this country. First, we strongly disagree that Congress 
never intended WSAs to have indefinite protected status. 
Section 603(c) of FLPMA expressly states that ``during the 
period of the review of such areas and until Congress 
determines otherwise, the Secretary shall continue to manage 
such lands according to his authority under FLPMA and the 
applicable law and in a manner so as to not impair the 
suitability of such areas for preservation as wilderness.''
    We interpret 603(c) as making it very clear that Congress 
wanted the Secretary to maintain the environmental status quo 
indefinitely for WSAs so as to maximize and preserve 
congressional options. And I should just note too, Mr. 
Chairman, that I worked for the Merchant Marine Fisheries 
Committee for 6 years in this hearing room. During that time 
when I was working for the Chairman of the Committee, we always 
worked to try to maximize congressional options and we worked 
hard to maintain congressional prerogatives. I think that is 
what we read into 603: an attempt to maintain the options for 
Congress to go one way or the other and to not lose those 
options by administrative action in the interim.
    The second reason we are opposed to this bill is that 
despite strong concerns that we had about the predecessor bill 
in the last Congress, H.R. 1500, we believe that the adverse 
impacts of H.R. 4620 are much more sweeping because it is not 
limited in scope to just the Bureau of Land Management as H.R. 
1500 was.
    H.R. 4620, we believe, would lift interim WSA protection 
from as much as 50 million acres of public lands in our 
national parks, national wildlife refuges, national forests and 
Bureau of Land Management lands. All you need to do is to look 
at the impact alone on the national park system to get an idea 
why we are particularly concerned about this bill. The 
definition of a wilderness study area is so broad in section 
(3)(d) of the bill that we believe that it could erase interim 
protection for over 25 million acres of park land including 
acreage in such icons as Yellowstone, Yosemite, Grand Teton, 
the Great Smokies and the Everglades.
    The Wildlife Refuge System wouldn't fair much better. In 
the lower 48 states, over 2 million acres are currently 
recommended for wilderness designation in 21 national wildlife 
refuges. These areas could have their interim protection and 
interim protective management removed under the terms of this 
bill. I should note that these 2 million acres and the 21 
affected wildlife refuges were recommended for wilderness by 
Presidents Nixon and Ford, hardly environmental extremists.
    The third reason that we are troubled by H.R. 4620 is 
because of the hard release provisions that it contains. By 
``hard release,'' we mean that once an area has been released 
from further consideration as a wilderness study area, it could 
never again be studied for inclusion in the wilderness system.
    Congress has repeatedly rejected similar hard release 
provisions and has never adopted it in wilderness legislation 
and we think for good reason. Here's an example of where a 
``hard release'' wouldn't make any sense and just wouldn't 
work. Congress has, over the decades, created the concept of 
``potential wilderness'' in the context of park wilderness 
legislation. With potential wilderness, what you have is a 
situation where they will be designating a large area within a 
national park as wilderness, but where there may be a 
nonconforming activity or use in one particular part of the 
park.
    What Congress will do in this situation is to punch the 
hole of the donut out of the original proposal. They will go 
ahead and designate the whole area as wilderness, but they will 
designate the hole as ``potential wilderness.'' As ``potential 
wilderness'' the hole becomes automatically upgraded to full-
blown wilderness status, if you will, at such time as the 
nonconforming use is ended.
    Under the terms of this bill, and under the definition of a 
``wilderness study area'' in section (3)(d) which applies to 
potential wilderness areas, even though Congress may have 
passed a law clearly signaling its intention that a given 
``potential wilderness'' area automatically shall become 
wilderness as soon as the nonconforming use has ceased, because 
of the hard release provision of this bill, if after the 
passage of 10 years the nonconforming use has not yet been 
eliminated, that area loses its ``wilderness'' status and can 
never again be considered for formal designation even though 
Congress already passed a law acknowledging its wilderness 
quality status in the park.
    That is an example of where the breadth of the bill 
covering park areas and the breadth of the definition involving 
hard releases causes serious problems.
    We are also troubled in particular by the provision that 
would allow secretaries of the Interior or Agriculture on their 
own determination to deactivate past wilderness study areas. I 
know I have run out of time, but I will just note that our last 
concern that we have with the sponsor's explanation of this 
bill is with their claim that these wilderness study areas 
should not be studied in perpetuity and that it is time to 
bring a close to these studies. It has been pointed out before 
the problem is not the breadth or length of the wilderness 
studies. These areas have been studied and the studies are 
complete. The problem lies with Congress, quite frankly, in 
being unable to reach a consensus on where these wilderness 
areas ought to go.
    So in summary, we believe that expediting wilderness 
designations is the correct way to resolve these issues. We too 
have appreciated the efforts and leadership coming out of 
Owyhee County in trying to reach a consensus on wilderness. The 
people in our Idaho office have been very actively involved and 
were highly complimentary of the efforts of the commissioners 
in that county in initiating this effort. We believe as does 
the Idaho Conservation League that that is how we will reach a 
resolution of these issues, and eventually get wilderness acts 
passed. Last Congress designated and enacted over a million 
acres of wilderness areas, and we think that is the way to go.
    Mr. Radanovich. Thank you, Mr. Barry.
    [The prepared statement of Mr. Barry follows:]

Statement of Donald J. Barry, Executive Vice-President, The Wilderness 
                                Society

    Mr. Chairman and Members of the Subcommittee, my name is Don Barry, 
and I am Executive Vice-President of The Wilderness Society. The 
Wilderness Society is devoted to preserving wilderness and wildlife, 
protecting pristine areas of our nation's national forests, public 
lands, national parks, and national wildlife refuge system, and 
fostering an American land stewardship ethic. I thank you for the 
opportunity today to testify in opposition to H.R. 4620, the 
erroneously titled ``America's Wilderness Protection Act,'' on behalf 
of The Wilderness Society and the Southern Utah Wilderness Alliance. I 
say erroneously titled, because far from protecting America's 
wilderness, the bill would result in the hands-off, automatic pilot, 
permanent release from wilderness consideration, and in most cases 
interim protection, of tens of millions of acres of public lands, 
national forests, national park lands, and lands within national 
wildlife refuges that deserve wilderness designation by Congress.
    It is difficult to understand an appropriate rationale for this 
legislation. Though its ``findings'' suggest that ``wilderness is 
beneficial,'' the clear result of the bill's enactment would be that 
very few areas of our national interest lands deserving wilderness 
designations would ever be so designated. Perhaps proponents of the 
bill are philosophically opposed to with the idea of wilderness. I 
would hope that is not the case. But in case it is, a word or two about 
the benefits of wilderness designation, I think, is warranted here. 
These benefits include protection of: habitat for diverse native plant 
and wildlife species; reservoirs of pure air and clean water; some of 
America's most spectacular, pristine, distinctive, and awe-inspiring 
natural landscapes; vast opportunities for outdoor recreation 
activities, such as hunting, fishing, camping, hiking, climbing, 
horseback riding, horse packing, and river-running; scientific 
research; and the increasingly rare opportunity to find solitude and 
escape from the daily pressures of our dynamic and expanding urban 
society. In fact, we need more wilderness protected in America, not 
less, as H.R. 4620 would assure.
    The Federal land management agencies are currently required to give 
interim protection to certain areas of the Federal lands that have been 
studied for possible wilderness designation by Congress, and to manage 
these areas in a manner that does not impair their wilderness 
characteristics pending a final Congressional determination regarding 
their wilderness status. The reason for this process is simple: once a 
wilderness is gone, it is gone forever.
    Under Sec. 3(a) of H.R. 4620, however, over 8.8 million acres of 
Bureau of Land Management Wilderness Study Areas (WSAs) (as defined in 
Sec. (3)(d) of the bill) in 10 states would immediately lose their WSA 
status upon enactment, without Congress having considered the specific 
merits of their wilderness attributes. (see attachment)
    Furthermore, once these lands were released from WSA status, the 
land management agencies would be barred by Sec. 3(c) from ever 
studying them for potential wilderness designation again. This 
unprecedented ``hard release'' language has never been accepted in any 
bills passed by Congress, and should not be accepted by this Committee 
now.
    With respect to WSAs that have been recommended for wilderness 
designation by a land management agency, the adverse consequences of 
this bill are obvious, even to the affected Federal land management 
agencies themselves. As the Bureau of Land Management stated in its 
testimony in opposition to similar legislation introduced during the 
106th Congress, the bill `` would create a timetable that would 
virtually guarantee wilderness areas would not be designated.'' Why? 
Because under
    Sec. 3(a)(2), wilderness opponents would merely have to prevent 
Congressional action on pending agency wilderness recommendations for 
10 years, at which time the interim protection afforded such areas 
would expire. Because such areas are ``hard released,'' under Sec. 3(c) 
they could never be considered by the agency for potential wilderness 
designation again. For example, within the National Park System 25 
million acres of wilderness quality land could lose their protective 
management status under this provision. (see attachment)
    Moreover, Sec. 3(a)(1) provides new authority for the Secretaries 
of Interior and Agriculture to terminate previous secretarial 
recommendations for wilderness designation. This can occur merely if a 
Secretary ``determines'' that a WSA recommended for wilderness 
designation by a previous Secretary is no longer ``suitable'' for 
wilderness designation. This is a blank check to the Secretaries to 
make arbitrary and capricious decisions to rescind a previous 
Secretary's action with no required study, no process, no compliance 
with the National Environmental Policy Act or other applicable 
statutes, and no consultation with the general public.
    Perhaps there is a perception on the part of some of the bill's 
proponents that Congress is not capable of moving forward on a positive 
wilderness designation agenda. In fact Congress has demonstrated slow 
but steady progress on the issue of wilderness designation, and should 
not shrink from the task now. For example, the 106th Congress 
eventually designated 1,016,753 acres of wilderness in the states of 
Colorado, Nevada, Oregon, and Virginia. There are certainly plenty of 
opportunities for this Subcommittee to far exceed the accomplishments 
of the 106th Congress, as outlined below.
    Accordingly, we recommend that this Committee discontinue its 
consideration of H.R. 4620, since it clearly has no prospect for 
passage. A far more productive approach would be for the Subcommittee 
to roll up its sleeves and approve comprehensive wilderness bills. This 
would include a number of legitimate wilderness bills that have either 
been introduced and referred to this Committee already, or which, we 
understand, will be introduced in the near future. For example, for 
several years now versions of H.R. 1613, ``America's Red Rock 
Wilderness Act,'' have been introduced in the House, garnered 
substantial support from Members of both political parties (it 
currently has 162 co-sponsors), but has never even received a hearing 
in this forum. Another comprehensive bill, H.R. 4468, the ``Colorado 
Wilderness Act'', has also been introduced in various forms over the 
years, but it has not received a hearing here, either. Yet another 
opportunity is H.R. 4644, the ``Wild Sky Wilderness Act,'' introduced 
just last week. There are others and there will be more to come.
    In conclusion, we urge the Subcommittee to oppose passage of H.R. 
4620, and instead move forward with a positive wilderness designation 
agenda. The best way to resolve wilderness issues is to pass wilderness 
bills, to legislate. That is why your constituents sent you here, to 
make tough legislative choices and to move positive legislative 
agendas. We would be most willing to assist the Subcommittee in this 
endeavor, as we have in the past. I look forward to your questions.
                                 ______
                                 
    [Attachments to Mr. Barry's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0063.025
    
    [GRAPHIC] [TIFF OMITTED] T0063.026
    
    Mr. Radanovich. You mentioned the cooperation you had 
gotten with Owyhee County. Describe to me what progress is. Mr. 
Johnson, you recognize you mentioned that as well. What kind of 
progress are you making? Chris, you had mentioned you are not 
that far apart. So what are you all talking about here? Are you 
coming up with something? What does it entail?
    Mr. Rick Johnson. I think we both come at it from different 
perspectives, so we both should answer. I think progress, first 
off, this is all about politics. It might be small ``p'' 
politic, politics is about relationships. So first and 
foremost, what has happened is some people that have previously 
only gotten to know each other through sound bytes or through 
quotes in, frankly, legal briefs are getting to know each other 
around a table and relationships are being built, the kind of 
relationships that actually lead to resolution of tough issues. 
So first and foremost, we are getting to know each other.
    After that, what we are doing is really getting to know 
what we stand for, the issues that our organizations or our 
constituencies or our communities are most concerned about, the 
things that we support and frankly the things we fear. And by 
getting to know those things, we start to understand why we are 
wilderness advocates, why we support cattle operations in the 
region, why we want to build a rural economy that lasts, we 
reach common understanding. At the same time we aren't there 
yet.
    Mr. Radanovich. Interesting.
    Mr. Salove. As a little bit of background, the Owyhee 
initiative is a group formed by us. The idea actually goes back 
a year ago or a little bit more. We brought together 12 groups, 
all of which are users of the land. Everything from the United 
States Air Force which has training ranges in Owyhee County to 
conservation groups, both of these groups here. We basically 
tried to include everyone that has an interest. There are 
recreation groups, there are cattlemen's groups. The only 
people that we excluded were the conservation groups such as 
John Marble, who we felt had no interest in reaching 
compromise.
    The progress that we have all referred to is the fact that 
now the representatives from these individual groups are to the 
point that they are making proposals. They have been meeting 
regularly, sitting down at a round table, if you will, talking 
over issues, specific issues. They are now at the point that 
each group is making proposals and finding out what each of the 
others really wants out of this initiative process. Our hope as 
commissioners is that this process will be resolved some place 
other than, as Rick says, through legal sound bytes and briefs 
in court which is where everything has been dealt with up to 
this point and nothing has been solved.
    We are hopeful that you will see representatives of the 
commissioners of all of this group back here for legislative 
action at some point, I would hope, within the next year.
    Mr. Radanovich. Based on what you guys come up with.
    Mr. Salove. Yes.
    Mr. Radanovich. More power to you. I think that is great. 
An example could be what was in forest service management in 
California with what is known as the Quincy Library Group, 
where a group of people got together, the local stakeholders 
and put together a plan. That, boy, I think the more you do 
that--you know, all vote for it. It is still not resolved yet, 
though. It still is being caught up in bureaucratic red tape. 
But they were able to take a plan and get it passed through 
Congress and through the Senate. So I would encourage you.
    Mr. Barry, in Yosemite, I was born and raised right next to 
Yosemite. What part is wilderness? Is that up in the high 
country? If you can't answer that, can you tell me why does a 
national park benefit from a wilderness designation? DCMN MAYER
    Mr. Barry. I can't tell you the exact area, but I will find 
out for you. There are 3,550 acres in Yosemite that are 
potential wilderness. It must be a nonconforming use, was 
designated as potential wilderness at some particular time. I 
can't give you the exact location though.
    Mr. Radanovich. But why do you name a wilderness in a 
national park?
    Mr. Barry. It is interesting you should mention that.
    I served as the Assistant Secretary over at the National 
Park Service for 3-1/2 years. And I have to say that I spent a 
lot of time in the back country of national parks on my own 
vacation time even after I stepped down.
    As I'd go from park to park to park, I frequently found 
them entirely differently managed in the back country area from 
one wilderness area to the next. And I think one of the reasons 
that national parks benefit from having wilderness in them is 
because, quite frankly, frequently you need to protect the 
national parks sometimes from the National Park Service.
    There have been--here's an example. In Glacier National 
Park, when I went hiking, I came down an area called Goat 
Haunt, and I was with the Chief Ranger of the Park Service at 
the time. And this is an area where they have all their 
livestock for having the trail crews work out of that area. He 
was so proud of this stable that they had there.
    I took one look at it. It was 5 feet from the major river 
draining into Waterton Lake with Waterton National Park on the 
Canadian side. You could see where the river bed went--it was 
dry at the time. You could tell every time there was a heavy 
rain, this creek bed went right under the stable, washed out 
all of the manure right under the lake. The Park Service never 
thought of it as a particular problem.
    So merely because land is managed by the National Park 
Service doesn't mean they are managing their areas in a 
careful, responsible way.
    There was a book that was put out by a park historian 
called ``Preserving Nature in the National Park System,'' which 
basically documents decades of poor land management decisions. 
I think the Park Service should not be excluded from wilderness 
park consideration, because people generally perceive they have 
the highest management standards. The areas qualified as 
wilderness in the back country, they ought to be managed as 
wilderness and designated as wilderness, as such.
    Mr. Radanovich. But it seems to me an issue like that could 
be brought up in the park's management plan.
    Mr. Barry. I am not disagreeing with that, Congressman. I 
am just saying there is more wilderness in national parks--I 
think about 44 million acres--than under any other Federal 
agency. I think it just reflects the fact that the national 
parks have some of the most beautiful topography in the country 
in them. That is why people drive to Yosemite to go see the 
back country and the high Sierras. I am sure that is an area 
you have hiked in, too.
    Mr. Radanovich. Thank you very much.
    Any other questions, Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. I really don't have a 
question of this panel, but I am sure--after listening to Mr. 
Barry, it reminds everyone who has ever been a cowboy that you 
don't drink downstream of the herd.
    Mr. Radanovich. Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Chris, thank you very much for coming to Washington, D.C. I 
apologize for having you come to Washington, D.C., to go 
through all this. And I want to congratulate you on the Owyhee 
Initiative and your leadership in that. Make no mistake about 
it, if you folks hadn't put that initiative together--the other 
folks, other stakeholders, weren't part of that process until 
you demonstrated the leadership, because--and I think the 
reason that those who appear to be so concerned about the 
multiple rate in development of pristine lands, it is not in 
their best interest to arrive at decisions like this.
    So I applaud you not only for your leadership, but for your 
patience. Do you expect this to take 10 years before you come 
up with some answers for the Owyhee Initiative?
    Mr. Salove. This group would never allow it to take 10 
years. We had hoped to have legislation ready in this calendar 
year, and I am not sure we are going to get to that point. I 
don't think there is any question everyone would lose heart and 
the process would be dead if it took 10 years.
    Mr. Otter. Mr. Johnson, do you think it will take 10 years 
to arrive at a point of agreement for the Owyhee Initiative?
    Mr. Rick Johnson. No, I don't. One of the key factors that 
keeps all of us at the table is the political reality is that 
we have the House, near parity in the Senate, the Idaho 
delegation and the Administration-- all of one party. So this 
presents a very good opportunity to move something forward.
    I would say, however, that, as you well know, Idaho has a 
lot of wilderness study areas and a lot of recommended 
wilderness and a lot of roadless areas. So the entire process 
of resolving these kinds of issues with the kind of work that 
we are doing, where you sit at a table and talk this through, 
that may well talk a lot more than 10 years.
    Mr. Otter. Rick, you and I had discussions and some other 
conversations before on other issues.
    Mr. Rick Johnson. Oftentimes, sir, with utmost respect 
about labels like ``whackos'' and ``obstructionists'' and 
things like that.
    Mr. Otter. You know, I feel the same way about politicians 
and big mouths and otters and other endangered species.
    But, Rick, you know, I have several times, in fact--you 
know, it is not well known because I don't play it in the 
newspaper, but I can't tell you how many trips on horseback 
that we have made into the wilderness study areas and into the 
Canyonlands, into Owyhee County.
    But I formalized that when I became a Member of Congress, 
and I invited the Idaho Conservation League. I invited quite a 
few--Nature Conservancy; I also invited the cattlemen and the 
off-road vehicle enthusiasts--only to ride a horse, not a four-
wheel.
    And last year Dallas Gudgell from the Idaho Conservation 
Association came with us, and he was quite enthused. Because we 
purposely ride all day and spend the night around the 
campfire--and there is magic about a campfire out there in the 
desert--and then ride back the next morning.
    You know, we saw eye to eye on a lot of things. And it is 
unfortunate that he, so quickly after he took that trip, went 
out of your employ, that I was--because I thought that we were 
actually clicking, we were actually coming to some agreement on 
what was important.
    And I also think I diminished Dallas' idea of my 20-some 
years of politics in Idaho, that I was one of these guys that 
didn't care about wilderness, that I only wanted to develop 
land and only wanted to graze it and only wanted to cut the 
logs.
    And so we renewed that process this year, and I guess there 
is going to be an empty saddle around the fireplace because the 
Idaho Conservation Association has since said that they are not 
going to attend. And I don't know if that is because I am 
attending or if it is because you are, but during your 
testimony, it was suggested that I wasn't willing to listen. It 
was suggested that I wasn't part of this collaborative process. 
There was some suggestion made that, jeez, you didn't have any 
trouble working with the rest of the delegation, but you had a 
problem working with me.
    I just want you to know right here in front of God and Mr. 
Radanovich, I just want you to know that I do want to solve the 
problems.
    And as I said yesterday to the news media, I will be the 
first to introduce the bill when the President brings it to our 
attention. I think this legislation advances Congress' 
attention as much as it does the rest of the stakeholders. But 
I am not going to substitute my judgment, holding this 
congressional seat for the collaboration that you folks are 
making in Owyhee County.
    I will guarantee you, when that bill comes up, I will be 
its best champion because I know it is the result of a 
collaborative effort and every stakeholder has had an 
opportunity to have their stab at the fire.
    So I make that commitment to you now. I would like to get 
yours--I would like to fill that saddle up this weekend.
    Mr. Rick Johnson. Part of the problem if I--if I could have 
the opportunity to respond, part of the problem is that I 
didn't find out about that opportunity to fill the saddle until 
about a week ago. And my respective saddle is already 
scheduled. So I cannot take care of that.
    The rest of my staff--John McCarthy, who probably would be 
most appropriate, who is sitting at the table at the Owyhee 
Initiative day in and day out, also is predisposed, I believe, 
because his son is graduating from high school.
    But I stand ready absolutely to get to work in any number 
of places. The Owyhee is just one of many.
    Another example, we will go to the whole other end of the 
district and say Long Canyon up in the panhandle. That is an 
area that we could get to work on right now. I challenge us 
both to sit down, and let's get the job done in Boundary 
County, Idaho. I think it would be easy.
    Mr. Otter. To make it work, we are going to have to have 
Chris, I guess.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Otter. And I think, with 
that, we are going to clear this panel, although I will say 
that the next couple of panels are going to be regarding two 
other bills that we are hearing today, so we are not going to 
bring the discussion of this particular bill up.
    I encourage those people that are working on this thing in 
Idaho, if Butch sponsors it, I am an automatic cosponsor. So 
keep working and bring something up, because this is--I think 
the Congress yearns for something like this to happen. So 
please keep up the good work.
    Thank you very much for being here.
    And I want to ask unanimous consent to include the 
statement of Representative John Doolittle in the record today, 
June 6, 2002. He could not be here and had some comments on 
H.R. 4620.
    [The prepared statement of Mr. Doolittle follows:]

   Statement of The Honorable John T. Doolittle, a Representative in 
          Congress from the State of California, on H.R. 4620.

    Mr. Chairman, I would like to thank you for holding this hearing on 
an important piece of legislation, H.R. 4620. As you may be aware, I 
also introduced a similar bill, H.R. 4589, The Wilderness Study Area 
Release Act. Although the two bills differ slightly in the number of 
years allotted for release and future study, both seek the same end 
immediate release of Federally managed land for utilization by the 
people of America.
    As I am sure you are aware, both pieces of legislation are almost 
identical to legislation Chairman Hansen introduced in the 106th 
Congress. H.R. 4589 and H.R. 4620 will provide for definitive end-dates 
to wilderness study area designations, thus ending one of the most 
egregious and widespread land rights abuses of the Federal land 
management agencies.
    Wilderness study areas are intended to be short-lived designations, 
which close off a specific portion of land to human activity and give 
the agencies an opportunity to determine whether to recommend to 
Congress that the land be officially designated as a permanent 
wilderness area. Currently the system leaves the land closed off to 
human use, including grazing and timber harvest, without congressional 
approval.
    My bill would automatically end wilderness study area designations, 
which are more than 15 years old. Currently there are 665 such 
designations, covering nearly 23 million acres exist in 18 states, the 
bulk of which are in the western U.S., according to the Congressional 
Research Service.
    Furthermore, any subsequent wilderness study areas after the 
enactment of H.R. 4589 must be determined to meet wilderness status no 
later than five years after designation, unless Congress declares them 
wilderness areas. All areas not declared official wilderness would 
revert to multiple-use as defined by the 1960 Multiple-Use Sustained-
Yield Act.
    Mr. Chairman, it is of the utmost importance that these agencies 
must no longer be allowed to deny the American people access to public 
lands simply by ignoring Congress. Both H.R. 4589 and H.R. 4620 will 
put an end to that practice.
    Again, I would like to thank you Mr. Chairman for holding this 
hearing. It is my hope the Committee will look favorably on wilderness 
study reform legislation and mark it up as expeditiously as possible.
                                 ______
                                 
    And then, with that, I will turn the gavel over to Mr. 
Gibbons from Nevada to call the next panel.
    Mr. Gibbons. [Presiding.] I want to thank Chairman 
Radanovich. What I would like to do, before we start here, is 
make a request, as the Chairman of the Committee and the only 
person left, to combine these last two panels. I think they 
both talk about the same two bills, and we would like to have 
both Panel 4 and Panel 5 if we can, come up here and testify.
    So, with that, we will ask Mr. Daniel Smith, Special 
Assistant to the Director of the National Park Service, 
Washington, D.C., to the table; Mr. Larry Finfer, Assistant 
Director for Communications, Bureau of Land Management, United 
States Department of Interior; Mr. Daniel Van Epp, President of 
the Howard Hughes Corporation, Las Vegas, Nevada; and Ms. 
Crystal Altenbaumer, Executive Director of the William J. 
Clinton Birthplace Home, Hope, Arkansas, to please be here.
    Mr. Gibbons. With that, we will ask Mr. Smith--we welcome 
you to the hearing. The floor is yours. We look forward to your 
testimony. And I might also add that, for any of you, the 
Committee will accept your full and complete statement into the 
record. If you want to summarize your statement that is fine.
    The floor is yours, Mr. Smith.

 STATEMENT OF DANIEL SMITH, SPECIAL ASSISTANT TO THE DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Smith. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify on H.R. 3815, a bill to authorize the 
Secretary of the Interior to conduct a study of suitability and 
feasibility of establishing a Presidential national historic 
site in Hope, Arkansas, and for other purposes.
    Mr. Chairman, the Department supports H.R. 3815; however, 
the Department did not request additional funding for this 
study in Fiscal Year 2003. Furthermore, we believe that any 
funding requested should be directed toward completing 
previously authorized studies. Presently, there are 37 studies 
pending of which we hope to transmit at least seven to Congress 
by the end of this fiscal year.
    To meet the President's initiative to eliminate the 
deferred maintenance backlog, we must continue to focus our 
resources on caring for existing areas of the national park 
system. Thus, we have concerns about funding requirements for a 
new park unit that could be required if the study recommends 
designation while the Department is trying to eliminate the 
deferred maintenance backlog. As such, the Department will 
identify in each study all acquisition, one-time, and 
operational costs of the proposed site. At this time, those 
costs are unknown.
    H.R. 3815 would authorize the Secretary of the Interior to 
carry out a study on the suitability and feasibility of 
designating the William Jefferson Clinton Birthplace Home 
located in Hope, Arkansas, as a National Historic Site.
    Hope, Arkansas, is the location of the boyhood home of the 
42nd President. It is located between Dallas and Memphis. This 
southern community is part of the Texarkana greater 
metropolitan area. Built in 1917, the house in Hope where 
President Clinton spent his first 4 years with his maternal 
grandparents is now owned by the Clinton Birthplace Foundation. 
This is a nonprofit 501(c)(3) organization and was established 
to help preserve the site, and has a witness represented here 
today.
    In 1998, Congress passed Public Law 105-391, the National 
Parks Omnibus Management Act of 1998, which requires 
congressional authorization of areas to be studied for 
potential new units of the national park system. The law also 
designates the criteria to be followed by the National Park 
Service in determining whether to recommend an area as a unit 
of the national park system. Thus, this study will determine 
whether it conforms to the criteria of Public Law 105-391.
    With respect to historic sites, the studies not only look 
at whether the event or person associated with the site was 
historically significant, they look at the integrity of the 
buildings and other factors, such as whether there are other 
sites that might more appropriately tell the story associated 
with a particular site.
    The national park system consists of many previous 
residences of former Presidents. However, there are also many 
residences of former Presidents that are not part of the 
system. A study would look at whether the Federal Government is 
the most appropriate entity to manage the site and would help 
identify other protection and preservation methods available.
    When sites are managed by other entities, such as State 
governments or private foundations, the National Park Service 
may assist these entities in achieving the common goal of 
protecting and interpreting these places for all Americans. 
Conducting a study allows Congress to be certain it is 
protecting an area that meets the criteria to be designated a 
unit of the national park system, and the National Park Service 
is the best agency to manage the site.
    A study would also enable the National Park Service and 
Congress to identify the costs in acquiring, restoring and 
operating a potential site. Such a review is important if we 
are to gain control over the deferred maintenance backlog and 
eliminate it within 5 years, as the President's initiative 
seeks to do.
    Mr. Chairman, this concludes my testimony. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
    Mr. Gibbons. Thank you very much, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to testify on H.R. 
3815, a bill to authorize the Secretary of the Interior to conduct a 
study of the suitability and feasibility of establishing a Presidential 
National Historic Site, in Hope, Arkansas, and for other purposes.
    The Department supports H.R. 3815, with a technical amendment noted 
at the end of this testimony. However, the Department did not request 
additional funding for this study in Fiscal Year 2003. We believe that 
any funding requested should be directed towards completing previously 
authorized studies. Presently, there are 37 studies pending, of which 
we hope to transmit at least 7 to Congress by the end of 2002. To meet 
the President's Initiative to eliminate the deferred maintenance 
backlog, we must continue to focus our resources on caring for existing 
areas in the National Park System. Thus, we have concerns about new 
funding requirements for a new park unit that could be required if the 
study recommends designation while the Department is trying to 
eliminate the deferred maintenance backlog. As such, the Department 
will identify in each study all acquisition, one-time, and operational 
costs of the proposed site. At this time, these costs are unknown.
    H.R. 3815 would authorize the Secretary of the Interior to carry 
out a study on the suitability and feasibility of designating the 
William Jefferson Clinton birthplace home located in Hope, Arkansas, as 
a national historic site. Hope, Arkansas, is the location of the 
boyhood home of William Jefferson Clinton, the 42nd President of the 
United States. Located between Dallas and Memphis, this southern 
community is part of the Texarkana greater metropolitan area. Built in 
1917, the house in Hope, where President Clinton spent his first four 
years with his maternal grandparents, is now owned by the Clinton 
Birthplace Foundation. This non-profit 501(c)(3) organization was 
established to help preserve this presidential site.
    In 1998, Congress passed Public Law 105-391, the National Parks 
Omnibus Management Act of 1998, which requires congressional 
authorization of areas to be studied for potential new units of the 
National Park System. The law also designates the criteria to be 
followed by the National Park Service in determining whether to 
recommend an area as a unit of the National Park System. This study 
will determine whether it conforms to the criteria of Public Law 105-
391.
    With respect to historic sites, the studies do not only look at 
whether the event or person associated with the site was historically 
significant. They look at the integrity of the buildings, and other 
factors, such as whether there are other sites that might more 
appropriately tell the story associated with a particular site.
    The National Park System consists of many previous residences of 
former presidents. However, there are also many residences of former 
presidents that are not part of the system. A study would look at 
whether the Federal Government is the most appropriate entity to manage 
the site and would help identify other protection and preservation 
methods available. When sites are managed by other entities, such as 
state governments or private foundations, the National Park Service may 
assist these entities in achieving the common goal of protecting and 
interpreting these important places for all Americans. Conducting a 
study allows Congress to be certain it is protecting an area that meets 
the criteria to be designated a unit of the National Park System and 
that the National Park Service is the best agency to manage the site.
    A study also would enable the National Park Service and Congress to 
identify the costs in acquiring, restoring, and operating a potential 
site. Such a review is important if we are to gain control of the 
deferred maintenance backlog and eliminate it within five years, as the 
President's Initiative seeks to do.
    We recommend a technical amendment to include a missing word. On 
page 2, line 15, insert ``the'' after ``to''.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gibbons. Mr. Finfer, the floor is yours.

       STATEMENT OF LARRY FINFER, ASSISTANT DIRECTOR FOR 
           COMMUNICATIONS, BUREAU OF LAND MANAGEMENT

    Mr. Finfer. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify on H.R. 4141, the Red Rock Canyon 
National Conservation Area Protection and Enhancement Act of 
2002. The Department generally supports the land tenure 
adjustments outlined in the bill, but believes several issues 
need to be addressed before it is advanced by the Committee.
    Red Rock Canyon is among the most spectacular areas managed 
by BLM and now attracts over 1 million visitors annually. Red 
Rock also enjoys considerable support in the Las Vegas 
community, and the management of the NCA is vastly enhanced by 
the Friends of Red Rock and other partners.
    H.R. 4141 proposes to legislate a land exchange between the 
BLM and the Hughes Corporation, as well as to transfer other 
public lands to Clark County for a park. The lands proposed to 
be transferred to the BLM from Hughes border the eastern edge 
of the NCA and total about 1,068 acres, seven parcels. The BLM 
strongly supports the acquisition of these parcels and believes 
they will enhance the NCA. Their addition will improve boundary 
management and enable better protection of the rock art 
cultural resources in the NCA.
    The public lands identified for transfer by exchange to 
Hughes total about 1,001 acres and were identified as suitable 
for disposal under the Southern Nevada Public Land Management 
Act. We understand these lands would be used to expand a 
master-planned housing community.
    At this time we do not have appraisals for the lands 
proposed for exchange in order to determine if they are, in 
fact, of approximate equal value. It is our understanding that 
Hughes has contracted with a private appraiser and expects to 
deliver estimates to BLM soon. Should these parcels not be of 
equal value, we would like the opportunity to modify the 
acreage of the lands involved in the exchange before the bill 
moves to markup.
    Further, the lands in question may be encumbered by rights-
of-ways and mining claims. We believe these uses, as well as 
concerns such as the responsibility for hazardous materials, 
need to be addressed in the bill.
    The bill would also require the BLM to transfer about 1,344 
acres of other public lands to Clark County at no cost for 
purposes of a park. These lands are adjacent to and 
intermingled with the lands to be transferred to the Hughes 
Corporation. While we do not oppose the transfer of these lands 
to the county, we believe they should be transferred at fair 
market value or, alternatively, under a Recreation and Public 
Purposes Act lease.
    In addition, our concerns about impacts on previously 
authorized uses in the Hughes transfer also apply to this one.
    In summary, we expect the benefits of the transfer of lands 
outlined in H.R. 4141 to be positive. However, we believe a 
number of unresolved issues need to be reconciled so we can 
support final passage of the bill.
    Mr. Chairman, this concludes my testimony. I am pleased to 
respond to any questions that you may have.
    Mr. Gibbons. Thank you very much Mr. Finfer.
    [The prepared statement of Mr. Finfer follows:]

   Statement of Larry Finfer, Assistant Director for Communications, 
       Bureau of Land Management, U.S. Department of the Interior

    Thank you for the opportunity to testify regarding H.R. 4141, the 
Red Rock Canyon National Conservation Area Protection and Enhancement 
Act of 2002. The Department generally supports the land tenure 
adjustments outlined in the legislation, but believes several issues 
need to be addressed before the bill is advanced by the Committee.
    H.R. 4141 provides for the exchange of certain lands managed by the 
Bureau of Land Management (BLM) to the west of Las Vegas for certain 
other lands owned by the Hughes Corporation which border the Red Rock 
Canyon National Conservation Area (NCA), also west of Las Vegas. The 
bill would also transfer additional lands from the BLM to Clark County, 
Nevada for a county park at no cost.
Background
    The Red Rock Canyon NCA was established in November of 1990 under 
Public Law 101-621. Its boundaries have been expanded by ensuing Acts 
of Congress in 1994 and again in 1998, so that today the NCA covers 
approximately 196,000 acres and receives over 1.2 million visitors a 
year. Its close proximity to a major urban center makes Red Rock Canyon 
NCA both a draw for the local population, and also a popular attraction 
for many of Las Vegas's visitors.
    The NCA's attraction is a result of a collision 65 million years 
ago by two of Earth's crustal plates. The force of that collision 
thrust gray limestone up and over younger red sandstone. The result 
today has a dramatic visual impact. We are not the first to be drawn to 
the spectacular mountains, cliffs, and outcroppings; evidence of 
prehistoric native peoples in the NCA date back at least five thousand 
years. Rock art, ceramics, and roasting pits bear evidence to their 
presence here. The springs that still dot the area undoubtedly brought 
these people and perhaps the beauty of the area encouraged them to 
stay.
    The NCA boasts a 13-mile scenic drive, a visitor center with guided 
walks and extensive interpretive materials. Visitors enjoy rock 
climbing, hiking, birding, jeep tours, and horseback riding. In 
partnership with the BLM, the Friends of the Red Rock, the Red Rock 
Canyon Interpretive Association and others, helps to serve many 
visitors needs and provides over 40,000 of volunteer hours annually to 
the NCA. In addition, commercial outfitters fill an important role in 
introducing visitors to many of the NCA's treasures.
H.R. 4141
    H.R. 4141 proposes to legislate both a land exchange between the 
BLM and the Hughes Corporation as well as transfer additional public 
lands to Clark County for a park. The lands proposed to be transferred 
to the BLM from the Hughes Corporation border the eastern edge of the 
NCA and total approximately 1,068 acres in seven separate parcels. The 
BLM strongly supports the acquisition of these parcels and believes 
they will enhance the NCA. The addition of these parcels will improve 
boundary management and allow for better protection of rock art within 
the NCA.
    The legislation is silent on responsibility for any potential 
hazardous materials that may preexist on these parcels. We believe that 
this should be addressed in the legislation. In addition, a 
modification of the boundary of the NCA to include all of these added 
lands should be clearly stated in the legislation and established on 
the legislative map. We are also concerned about language in section 
4(a) of the bill that may imply that the Hughes Corporation does not 
own all right, title, and interest to these lands and would like 
clarification before we move forward. Finally, the Administration 
opposes the language contained in section 6(a) and proposes its 
deletion. Section 6(a) of the bill exempts implementation of the 
exchange from consideration or action under the National Environmental 
Policy Act, the National Historic Preservation Act, or any other law or 
Executive Order. The Administration supports authorization of an 
exchange through normal public review, including title review, and 
disclosure of the fiscal and environmental effects of the exchange to 
ensure equal value and full awareness of the consequences of the 
exchange.
    The public lands identified for transfer by exchange to the Hughes 
Corporation, total approximately 1001 acres and were identified for 
disposal under the Southern Nevada Public Land Management Act (SNPLMA), 
Public Law 105-263. It is our understanding that these lands would be 
used for the expansion of a master-planned housing community. Under 
SNPLMA, proceeds from BLM-managed lands which are disposed of are 
divided between the State of Nevada general education fund (5%), the 
Southern Nevada Water Authority (10%), and a special account in the 
Treasury for acquisition of environmentally-sensitive lands in Nevada 
and other purposes (85%). Section 4 of SNPLMA mandates that in the case 
of a land exchange, the non-Federal party remains liable for the 5% and 
10% payments. The legislation is silent on this point, and therefore we 
make the assumption that these provisions of SNPLMA would apply to the 
Hughes Corporation.
    In addition, the public lands identified for disposal are currently 
encumbered by rights-of-way for roads, water pipelines, gas pipelines, 
and power lines as well as mining claims. We would like to ensure that 
these current uses are appropriately addressed by the legislation.
    At the present time, we do not have appraisals for the lands 
proposed for exchange in order to determine if they are, in fact, of 
approximate equal value. It is our understanding that the Hughes 
Corporation has contracted with a private appraiser and expects to have 
estimates to the BLM in the near future. Should these parcels not be of 
equal value we would like the opportunity to modify the acreage of the 
lands involved in the exchange before the bill moves to markup.
    The bill would also require the BLM to transfer approximately 1,344 
acres of additional public lands to Clark County at no cost for 
purposes of a park. These lands are adjacent and intermingled with the 
lands to be transferred to the Hughes Corporation. While we do not 
oppose the transfer of these lands to the county we believe they should 
be transferred at fair market value or through a Recreation and Public 
Purposes (R&PP) lease. In addition, our concerns about impacts on 
preexisting uses in the Hughes transfer would also apply to this 
transfer.
    Finally, H.R. 4141 references a map. We are in the process of 
creating a map which better reflects the specifics of this proposal, 
including land status. We would strongly recommend the bill be amended 
to reference the BLM map as opposed to one created by a private entity.
Conclusion
    The long-term benefits of the transfer of lands outlined in H.R. 
4141 will be positive. However, we believe that a number of unresolved 
issues need to be reconciled before we could fully support final 
passage of this bill.
                                 ______
                                 
    Mr. Gibbons. I would like now to introduce a friend, Mr. 
Daniel Van Epp, President of the Howard Hughes Corporation.
    Welcome, Mr. Van Epp. We have known each other for many 
years, and we have worked on this project for many years. And 
it is a pleasure to have you here, as is your son, Nate, who is 
back there making sure that you testify correctly. We want to 
welcome you. As we know, this is your cameo appearance before 
the U.S. Congress, and it is indeed a pleasure to have you.
    The lights in front of you are simply a stop-and-go sign. 
That red light, 5 minutes; yellow, sum it up; and the green--
the red light is to stop, yellow is to sum it up, and green is 
to talk as much as you want.
    With that, Mr. Van Epp, if I could get it straight, you are 
welcome and the floor is yours.

     STATEMENT OF DANIEL VAN EPP, PRESIDENT, HOWARD HUGHES 
                 CORPORATION, LAS VEGAS, NEVADA

    Mr. Van Epp. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here to testify to you today.
    We appreciate the work of your office and staff in crafting 
and introducing this bill to the House of Representatives, a 
bill that would enhance the Red Rock Canyon National 
Conservation Area and preserve significant viewsheds in the 
western Las Vegas Valley.
    It would also set aside more than 1,200 acres of ridge line 
for use by Clark County as a passive park. And it would raise 
the level of protection for an additional 232 acres of BLM land 
surrounding a flood control basin adjacent to the conservation 
area, thus guaranteeing its permanent preservation.
    For these reasons and many more, this bill is supported by 
the entire Nevada congressional delegation, as you have just 
heard, also by the BLM, local governments of southern Nevada, 
conservation groups and other interested parties.
    Our company is developing the master-planned community of 
Summerlin on land acquired by Howard Hughes nearly a half 
century ago. Summerlin is America's most successful master-
planned community, and when completed, it will be home to 
160,000 Nevadans.
    Our company was acquired in 1996 by The Rouse Company, 
recognized today as one of America's most successful real 
estate investment trusts. The Rouse Company developed Columbia, 
Maryland, one of the first major master-planned communities in 
America. Other major successful projects include downtown 
revitalization, such as Harbor Place in Baltimore and Faneuil 
Hall in Boston.
    Joining me today is the Vice Chairman of The Rouse Company, 
Douglas McGregor.
    Summerlin covers more than 22,000 acres and stretches along 
the western rim of the Las Vegas Valley, bordering public 
lands, including the Red Rock Canyon National Conservation 
Area.
    Mr. Van Epp. A principal reason passage of this bill is so 
important is that the boundary of the Federal land to our west 
is based on section lines and so it does not conform to the 
well-defined foot of the mountains. Thus it is that the very 
toes or shoulders of some of those mountains are clipped by the 
current property lines. A clear border is created where the 
mountain slopes meet the alluvial plain, forming a natural and 
desirable boundary between Summerlin and the conservation area. 
The bases of those mountains that currently lie within 
Summerlin make up the bulk of the offered lands of this 
exchange proposal.
    Logic would dictate that if most of the mountain is under 
the protection of a conservation area, perhaps the entire 
mountain should be also included, and that is precisely what 
this legislation addresses. Our company takes great pride in 
the quality of Summerlin and guides its development with a 
strong environmental stewardship. At Summerlin's inception, 
approximately 5,000 acres of pristine land was transferred to 
the BLM through an exchange, creating what is today the gateway 
and buffer zone for the astonishingly beautiful Red Rock Canyon 
National Conservation Area.
    There are many other examples of our environmental 
leadership, including the use of water-saving landscapes, 
preservation of arroyos to maintain natural terrain while 
providing recreational opportunities, and design criteria that 
require the use of color palettes indigenous to the desert, 
thereby reducing impact on the viewshed. Most visitors to Las 
Vegas are well acquainted with the manmade grandeur of the 
Strip, but 15 miles to the west, our efforts in the creation of 
Summerlin are precisely the opposite, to preserve the natural 
beauty and harmony of the desert by responsible development.
    While it is generally acknowledged that custom home lots 
perched on mountain slopes provide extraordinary high value 
view lots, the impact of such development on viewsheds is an 
issue. This bill refers to an exchange of lands of equal value. 
That value is being determined by an appraisal conducted by a 
BLM-approved professional using all applicable Federal 
standards and, as mentioned earlier, is due to be complete in 
the very near future.
    The process of gathering input on this bill has been open 
and inclusive, and we have initiated dozens of meetings with 
environmental leaders, government agencies and community 
organizations. The result is widespread support from members of 
the local Sierra Club, the Nature Conservancy and numerous 
leaders of environmental and conservation groups in southern 
Nevada. We believe this bill is a prime example of constructive 
legislation. It engenders public consensus and accomplishes 
multiple goals. It expands the national conservation area. It 
protects and preserves the viewshed for the entire Las Vegas 
valley. It improves access to the conservation area, and it 
creates a park for Clark County residents.
    Mr. Chairman and members of the Committee, thank you for 
your consideration and leadership.
    [The prepared statement of Mr. Van Epp follows:]

 Statement of Daniel Van Epp, President, The Howard Hughes Corporation

    Mr. Chairman, thank you for the opportunity to testify before this 
important Subcommittee in support of H.R. 4141, the Red Rock Canyon 
National Conservation Area Protection and Enhancement Act of 2002.
    We appreciate the efforts and expertise of Congressman James 
Gibbons and his staff in introducing H.R. 4141 to the House of 
Representatives. The Congressman's leadership has resulted in a well-
crafted bill, beneficial to the residents of Clark County, and 
supported by the entire Nevada congressional delegation, Nevada local 
governments, conservation groups and other interested parties.
    This bill will enhance the Red Rock Canyon National Conservation 
Area, and preserve significant viewsheds in the western Las Vegas 
Valley. H.R. 4141 will also set aside approximately 1223 acres of high-
terrain Federal land along a prominent ridgeline for use by Clark 
County as a passive park and component of a growing regional trail 
system. Finally, the bill would incorporate 232 acres of BLM land 
surrounding a flood control basin into the adjacent Red Rock Canyon 
National Conservation Area, thus guaranteeing its permanent protection.
INTRODUCTION
    The Howard Hughes Corporation, an affiliate of The Rouse Company, 
is developing the Summerlin master-planned community in Clark County. 
Summerlin borders BLM- managed public lands on the western side of the 
Las Vegas Valley, including the Red Rock Canyon National Conservation 
Area. Howard Hughes takes great pride in the quality of the Summerlin 
community and its contribution to the quality of life in Las Vegas. 
Similarly, we are committed to sensitive development that protects and 
enhances the priceless public resources of Southern Nevada, especially 
the Red Rock Canyon National Conservation Area. That is why this land 
exchange makes such good sense from every perspective.
THE EXCHANGE
    Under the proposed legislation sponsored by Congressman Gibbons, 
The Howard Hughes Corporation would transfer to the BLM 1,071 acres of 
privately-held high-ground acreage (lands offered) in the northwestern 
region of Summerlin in exchange for Bureau of Land Management (BLM) 
acreage of equal value. These ``lands selected'' are inside the 
Southern Nevada Land Disposal Boundary, and are contiguous with the 
southern region of Summerlin. The exact amount of land our company will 
acquire is dependent on the results of an appraisal in progress.
    Most of the lands offered comprise the lower slopes of mountains 
which are located primarily inside the Red Rock Canyon National 
Conservation Area. Exchanging them to the Federal Government guarantees 
that they will be protected from private development that could 
negatively impact the approach to Red Rock and mar the spectacular 
viewshed of this area looking west from Las Vegas.
    In return, The Howard Hughes Corporation will acquire lands of 
equal value (determined through appraisal) that lie west and south of 
its current Summerlin holdings. Through the Southern Nevada Public 
Lands Management Act, this property is already slated for future 
disposal and development, either by auction or exchange to private 
parties or for public purposes.

BENEFITS
    1. LRed Rock Canyon National Conservation Area is enhanced and 
expanded by the addition of approximately 1,071 acres of adjacent 
private high-terrain land.
    2. LClark County will acquire approximately 1,223 acres of high 
ridgeline property inside the Southern Nevada Disposal Boundary for use 
as a passive county park. This will allow the county to develop trail 
systems with management plans, providing residents with a spectacular 
and accessible recreational opportunity.
    3. LThe Howard Hughes Corporation can continue environmentally 
sound development of our land, while preserving significant viewsheds 
and improving access to conservation areas.
    4. LA portion of BLM land was originally excluded from Red Rock 
because of the need for a regional flood control structure. The 
structure is now built and 232 acres of the 'carve-out' that were not 
used remain outside the Conservation Area. We propose amending the 
current bill to insert these lands into the Red Rock Canyon National 
Conservation Area, which would grow by an additional 232 acres. This 
amendment would enhance viewshed protection and provide protected trail 
access routes into the National Conservation Area.

HUGHES HISTORY
    When Howard Hughes died in 1976, his estate included 49,000 acres 
of real estate. After the disposition of all but the most valuable 
properties, Summa Corporation, now known as The Howard Hughes 
Corporation, retained the land in Southern Nevada that is currently 
under development as Summerlin. In 1996 the corporation merged with The 
Rouse Company of Columbia, Maryland, one of the largest publicly held 
real estate development and management companies in the United States. 
The Rouse Company is one of the nation's foremost real estate 
investment trusts.

SUMMERLIN
    Today Summerlin is ranked as America's most successful master-
planned community and is home to more than 60,000 residents. Upon 
build-out in 2015, more than 160,000 Nevada residents will call 
Summerlin home. The community spans the Las Vegas Valley's western rim, 
much of it bordering the mountains of Red Rock Canyon National 
Conservation Area.
    The boundaries that demarcate the Federal land to our west are 
based on section lines or fractions thereof. Thus it is that the very 
'toes' or 'shoulders' of some bordering mountains are 'clipped' by the 
current property lines. Those lower mountain lands make up the bulk of 
the offered lands of this exchange proposal. Logic would dictate that 
all of a given mountain in a conservation area should be included, and 
that is precisely what this legislation addresses.

ENVIRONMENTAL HISTORY
    The Howard Hughes Corporation enjoys and values a strong working 
relationship with the environmental community of Southern Nevada. This 
partnership dates back to an exchange facilitated by The Nature 
Conservancy in 1987, long before the first homes were built in 
Summerlin. Through this exchange, The Howard Hughes Corporation and the 
Bureau of Land Management assured the preservation of a significant 
part of Red Rock Canyon. The exchange transferred a 5,000-acre parcel 
of land owned by Hughes, which provided an important buffer zone and 
gateway into one of Southern Nevada's most precious environmental 
treasures. This parcel was considered a critical element in what 
eventually became the Red Rock Canyon National Conservation Area.
    Environmental stewardship has been an integral part of the entire 
planning process of our master-planned community. Summerlin is the 
first major scale master-planned community in Nevada to use award 
winning drought-tolerant (low-water-use) plantings in common areas, 
saving precious water resources. Strict design criteria are imposed to 
reduce viewshed impacts throughout the community. Natural drainage 
features such as arroyos are often preserved to maintain natural 
terrain, while at the same time providing recreational opportunities. 
Light pollution is addressed through the use of limited-spread street 
lighting.
    These are just a few of the many ways in which our company has 
addressed and maintained a dedication to environmentally sound 
development. We are proud of the numerous awards and considerable 
recognition this planning has garnered.

HILLSIDE DEVELOPMENT
    There has been a fair amount of media attention focused on hillside 
development recently in Southern Nevada (see attached article). While 
it is generally acknowledged that custom home lots cut from hillsides 
provide extraordinary high-value view lots, the impact of such 
development on viewsheds is an issue. As profiled in attached media 
reports, Hughes is dedicated to reducing that impact in our northwest 
holdings through this exchange. Likewise, the county acquisition of the 
high ground ridgeline to the south also enhances such preservation 
efforts.

APPRAISAL
    The language in this bill refers to an exchange of lands ``of equal 
value.'' That value is being determined by appraisal. The appraisal 
will comply with all applicable Federal standards and is supported by 
both an extensive engineering study, as well as an extensive marketing 
study. The appraisal nearly complete and will be turned over to the Las 
Vegas District BLM office for review.

CREATING A NEW PARK
    An important element of this legislation will create a major 
recreational opportunity for the Las Vegas Valley. Clark County will 
receive approximately 1223 acres of ridgeline for use as a passive 
park. The county identified the recreational and planning advantages of 
acquiring this ridge years ago. Aside from the potential for trail 
systems, the acquisition will also address an important viewshed issue. 
Commercial or residential development of this ridgeline would impact 
the viewshed for the southwest quadrant of the Las Vegas Valley, if not 
the valley-at-large. Any associated increase in the value of lands 
surrounding this potential park has been factored into the appraisal 
process.

SUPPORT
    The process of gathering input has been open and inclusive, and has 
involved dozens of meetings with interested parties, government 
agencies (both local and Federal), community organizations and 
concerned residents.
    Our corporation has initiated such meetings to discuss the 
potential exchange with environmental leaders in Nevada, working toward 
a bill that will benefit all residents of Clark County. This bill has 
received widespread support from the environmental community, including 
words of praise from the local Nevada chapter of the Sierra Club, 
leaders of which (including Jane Feldman) were featured in newspaper 
stories as well as on television news reports. The Sierra Club also 
wrote a letter of ``non-opposition'' to this exchange (see attached). 
Other environmental supporters of the bill include The Nature 
Conservancy (see attached letter), and Alan O'Neill, executive director 
of the Outside Las Vegas Foundation (see attached letter).
    The exchange is likewise supported by both the City of Las Vegas 
(see attached resolution) and Clark County (resolution to be introduced 
by Clark County).

SUMMARY
    This legislation will impart significant benefits to all Southern 
Nevadans, including conservation of sensitive lands and the 
establishment of considerable recreational opportunities, while still 
providing economic opportunity for The Howard Hughes Corporation. 
Supported by the environmental community, local government and the 
Bureau of Land Management, this bill is a prime example of constructive 
legislation that engenders public consensus.
    We are deeply appreciative of the opportunity to provide details 
and to testify in person on this proposed legislation. The elected 
leaders and staff who conduct the legislative process of the House of 
Representatives are to be commended for their service to country and 
constituents. It is an honor to be invited to contribute to such a 
process. Mr. Chairman and members of the Committee, we thank you all 
for your kind consideration, especially Congressman James Gibbons, 
whose leadership and initiative made it possible.
                                 ______
                                 
    [Attachments to Mr. Van Epp's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0063.011
    
    [GRAPHIC] [TIFF OMITTED] T0063.012
    
    [GRAPHIC] [TIFF OMITTED] T0063.013
    
    [GRAPHIC] [TIFF OMITTED] T0063.014
    
    [GRAPHIC] [TIFF OMITTED] T0063.015
    
    [GRAPHIC] [TIFF OMITTED] T0063.016
    
    [GRAPHIC] [TIFF OMITTED] T0063.017
    
    [GRAPHIC] [TIFF OMITTED] T0063.018
    
    [GRAPHIC] [TIFF OMITTED] T0063.019
    
    [GRAPHIC] [TIFF OMITTED] T0063.020
    
    [GRAPHIC] [TIFF OMITTED] T0063.021
    
    [GRAPHIC] [TIFF OMITTED] T0063.022
    
    [GRAPHIC] [TIFF OMITTED] T0063.023
    
    [GRAPHIC] [TIFF OMITTED] T0063.024
    
    Mr. Gibbons. [Presiding] Mr. Van Epp, I wish everyone could 
follow you. That was, to the second, 5 minutes. Obviously you 
practiced that speech. As everyone heard, we have a vote 
underway. We have a little less than 10 minutes, probably 
between 5 and 10 minutes left.
    Turn now to Crystal Altenbaumer. Welcome. The floor is 
yours. We look forward to your testimony.

 STATEMENT OF CRYSTAL ALTENBAUMER, EXECUTIVE DIRECTOR, WILLIAM 
           J. CLINTON BIRTHPLACE HOME, HOPE, ARKANSAS

    Ms. Altenbaumer. Thank you, Mr. Chairman and members of the 
Subcommittee. I am going to make mine quick because I am 
freezing. So if my teeth start chattering, you will understand.
    I appreciate the opportunity to testify in support of H.R. 
3815, the Presidential Historic Site and Study Act. This 
legislation would authorize the Department of Interior to study 
the feasibility of designating the birthplace home of President 
William Jefferson Clinton in Hope, Arkansas as a national 
historic site. The house at 117 South Hervey Street in Hope, 
Arkansas is known as the Bill Clinton birthplace or the first 
home of the 42nd President of the United States. The Clinton 
Birthplace Foundation was established in 1993 as a nonprofit 
corporation to serve the historic preservation opportunities in 
President Clinton's home State. Currently the foundation is not 
affiliated with, sponsored by, or otherwise supported by the 
President of the United States or any official agency of the 
Federal Government.
    One of the foundation's primary goals is to restore and 
preserve President Clinton's first home. President Clinton's 
grandparents, Edith and Eldridge Cassidy, purchased the home in 
1938, and at that time the President's mother, Virginia, was in 
high school. During the next few years she met and married 
William Blythe. Virginia Cassidy Blythe was 3 months pregnant 
with her first child when her husband was killed in a car wreck 
during a business trip. Virginia lived in the house with her 
parents during the remainder of her pregnancy, giving birth to 
William Jefferson Blythe on August 19, 1946.
    Virginia raised Billy in Hope with the help of her parents 
for the first 2 years of his life. After his second birthday, 
she left him in her parents' care to attend nursing school in 
order to be able to support herself and young son. Then in 1950 
Virginia married Roger Clinton.
    The home on 117 South Hervey Street is the property most 
directly associated with the teachings, values and benefits 
that have served President Clinton throughout his life and 
career. The Cassidys taught their young grandson by placing 
flash cards on the curtains and they would drill him over and 
over until he knew his numbers. They also taught him how to 
read newspapers by the time he was 4 years old. It was in this 
house that Bill Clinton spent his formative years learning to 
talk, walk, laugh, play, read, and pray. President Clinton has 
said he has great memories of living with his wonderful 
grandparents. President Clinton's grandfather owned a small 
grocery store in Hope, and despite the segregation laws at the 
time allowed people of all races to make purchases on credit. 
The Cassidys taught their grandson that everyone should be 
treated equally. Clinton's statement ``I still believe in a 
place called Hope'' has given people of every race the 
inspiration to strive forward while paying tribute to the place 
where he learned life's lessons.
    Through interpretive programs the Clinton birthplace and 
visitor center will seek to stimulate an interest in history 
and engender an understanding of what the past means to the 
present and the future. It has promoted the value of education 
and shows what education has done for President Clinton, making 
it an excellent field trip experience for school. It is seen as 
a strong historical and educational project that will attract a 
large number of public school children throughout the country.
    Besides chronicling the life and times of Bill Clinton, the 
Clinton birthplace and visitor center recognizes and promotes 
the rich history, achievements and legacy of the region and 
State to show the impact of this environment on the young Bill 
Clinton. It serves as a tourist attraction promoting economic 
development throughout Hope, Hempstead County and southwest 
Arkansas.
    The financial structure for this historic treasure has come 
from extensive fund-raising efforts, small grants and some 
funding from the Arkansas government. Citizens from throughout 
the Nation have supported the restoration program and have 
helped sustain the foundation and the birthplace home, many of 
them coming with multiyear pledges. Today the Clinton 
Birthplace Foundation operates on money raised from admissions, 
sales from gift shop and contributions from visitors and other 
interested parties. While the foundation is presently 
financially sound, cutbacks have been made where necessary to 
maintain operations while awaiting national park status. Other 
fund-raising efforts will be ongoing to establish the 
educational facilities at the center so the foundation can hand 
over to National Park Service a site already established as an 
educational, historic and tourist family attraction.
    Mr. Chairman, I look forward to answering any questions the 
Committee may have.
    [The prepared statement of Ms. Altenbaumer follows:]

   Statement of Crystal Altenbaumer, Executive Director, William J. 
         Clinton Birthplace Home, Hope, Arkansas, on H.R. 3815

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify in support of H.R. 3815, the Presidential 
Historic Site Study Act. This legislation would authorize the 
department of the Interior to study the feasibility of designating the 
birthplace home of President William Jefferson Clinton in Hope, AR as a 
national historic site. The house at 117 S. Hervey Street in Hope, AR 
is known as the Bill Clinton birthplace or the first home of the 42nd 
President of the United States.
Birthplace Foundation
    The Clinton Birthplace Foundation was established in 1993 as a non-
profit corporation to serve the historic preservation opportunities in 
President Clinton's home state. Currently, the Foundation is not 
affiliated with, sponsored by or otherwise supported by the President 
of the United States or any official agency of the Federal Government. 
One of the Foundation's primary goals is to restore and preserve 
President Clinton's first home.
History
    In 1917, Dr. H.J.S. Garrett, who settled in Hope after living in 
France, built the structure located at 117 South Hervey Street in Hope, 
AR. Structurally, it is known as the American foursquare, a 2-+-story 
2,100 square ft. building.
    Virginia Cassidy's parents, Edith & Eldridge Cassidy, purchased the 
home in 1938, while Virginia was in high school. During the next few 
years she met & married William Blythe, a traveling salesman. Virginia 
Cassidy Blythe was three months pregnant with their first child when 
her husband was killed in a car wreck during a business trip. Virginia 
lived in the house with her parents during the remainder of her 
pregnancy, giving birth to William Jefferson Blythe on August 19, 1946.
    Virginia raised Billy in Hope, with the help of her parents for the 
first two years of his life. After his second birthday she left him in 
her parents care to attend nursing school in New Orleans, LA, learning 
the trade of nurse anesthetist to support herself and young son. In 
1950, Virginia married Roger Clinton.
    The home on 117 S. Hervey Street is the property most directly 
associated with the teachings, values, and benefits that have served 
President Clinton throughout his life and career. The Cassidy's taught 
their young grandson to count by placing flash cards on the kitchen 
curtains and drilling him over and over the numbers while he was fed. 
They taught him how to read newspapers by the age of 4. It was in this 
house that Bill Clinton spent his formative years, learning to walk, 
talk, laugh, play, read & pray. President Clinton has said ``he has 
great memories of living with his wonderful grandparents.''
    President Clinton's grandfather owned a small grocery store in Hope 
and despite the segregation laws of the time, allowed people of all 
races to make purchases on credit. The Cassidy's taught their grandson 
that everyone should be treated equally. Clinton's statement, ``I still 
believe in a place called Hope,'' has given people of every race the 
inspiration to strive forward, while paying tribute to the place where 
he learned life lessons.

Foundation Mission and Purpose
    Since Bill Clinton is the first President of the United States to 
be born after World War II, it is only fitting that plans for this 
birthplace museum are different from those honoring other Presidents. 
While many of these homes keep visitors in hallways behind ropes, the 
Clinton home features interactive exhibits.
    The Foundation Board of Directors completed an in-depth development 
feasibility study in February 1995 for a proposed $1.5 million capital 
development program to restore the home. Interviews were conducted with 
individuals, businesses and foundations throughout Arkansas and the 
United States. The study indicated that the restoration program is 
viewed as a ``win-win'' situation for Hope and Arkansas with the 
benefits of increased tourism, positive public image, and historical 
preservation.
    Through interpretive programs, the Clinton birthplace and visitors 
center will seek to stimulate an interest in history and engender an 
understanding of what the past means to the present and the future. It 
has promoted the value of education and shows what education has done 
for President Clinton, making it an excellent field-trip experience for 
schools. It is seen as a strong historical and educational project that 
will attract a large number of public school children throughout 
Arkansas, North Texas, Louisiana, and Southeast Oklahoma.
    Besides chronicling the life and times of Bill Clinton, the Clinton 
birthplace and visitors center recognizes and promotes the rich 
history, achievements and legacy of the region and state to show the 
impact of this environment on the young Bill Clinton. It serves as a 
tourist attraction promoting economic development throughout Hope, 
Hempstead County, and Southwest Arkansas.

Restoration
    Restoration of the birthplace home began in 1995, and was opened 
for visitation on June 1, 1997. Under the professional direction of 
Cromwell-Truemper-Levy-Thompson-Woodsmall, the foundation restored the 
home into a hands-on museum and has constructed a visitor's center. 
Visitors have relative open access to all parts of the home. In 
addition to the home serving as an interactive museum, the visitor's 
center features an exhibit area and educational facility. The entire 
complex is located on a half city block.

Funding
    The financial structure for this historic treasure has come from 
extensive fund-raising efforts, small grants and some funding from the 
Arkansas government. Citizens from throughout the nation have supported 
the restoration program. Personal and corporate contributions of 
varying amounts, all of them tax-deductible, have helped sustain the 
foundation and the birthplace home, many of them coming with multi-year 
pledges.
    Today, the Clinton Birthplace Foundation operates on money raised 
from admissions, sales from the gift shop and contributions from 
visitors and other interested parties. While the foundation is 
presently financially sound, cutbacks have been made where necessary to 
maintain operations while awaiting national park status. Fund-raisers 
are being planned to further develop the site and maintain the 
structure and facilities available now.
    For example, the foundation is selling personalized bricks that 
will be placed adjacent to the Virginia Clinton Kelley Memorial Rose 
Garden, which will both help maintain the grounds while allowing 
citizens to have their names associated with the historic the site. 
Other fund-raising efforts will go to establish the educational 
facilities at the center so that the foundation can hand over to the 
National Parks Service a site already established as an educational, 
historic and tourist-friendly attraction. The foundation also has 
assuring that visitors will get the information about the home and 
family from residents of the area where the president spent his 
formative years.
    Mr. Chairman, I look forward to answering any questions the 
Committee might have.
                                 ______
                                 

    [Attachments to Ms. Altenbaumer's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0063.002
    
    [GRAPHIC] [TIFF OMITTED] T0063.003
    
    [GRAPHIC] [TIFF OMITTED] T0063.004
    
    [GRAPHIC] [TIFF OMITTED] T0063.005
    
    [GRAPHIC] [TIFF OMITTED] T0063.006
    
    [GRAPHIC] [TIFF OMITTED] T0063.007
    
    [GRAPHIC] [TIFF OMITTED] T0063.008
    
    [GRAPHIC] [TIFF OMITTED] T0063.009
    
    [GRAPHIC] [TIFF OMITTED] T0063.010
    
    Mr. Gibbons. Absolutely perfect. Folks, I am going to have 
to leave to go do the vote process, the process to which I was 
elected to this office. It is going to preclude me from asking 
questions. I would like to submit written questions to the 
witnesses from the Committee to be answered and submitted back 
to the Committee for our benefit. I am sure all of you will 
agree that should we submit questions to you that you would be 
willing to supply answers to them for the record on the 
Committee.
    Mr. Gibbons. Also for Committee purposes, I would like to 
submit for the record a boundary modifications map dated May 
24, 2002 for H.R. 4141 and the Red Rock Enhancement Act map 
dated March 15, 2002 for the record.
    Mr. Gibbons. With that, I want to thank you. I know that 
there were expectations of answering and two-way dialog here, 
but unfortunately I do not control the floor schedule and the 
vote has taken precedent. And I would like to thank you, excuse 
the witnesses, and bring this hearing to a close.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]

    [The maps submitted for the record follow:] 

    [GRAPHIC] [TIFF OMITTED] T0063.027
    
    [GRAPHIC] [TIFF OMITTED] T0063.028
    

</pre></body></html>
